<html>
<title> - FROM IRAQ AND SYRIA TO LIBYA AND BEYOND: THE EVOLVING ISIL THREAT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
   FROM IRAQ AND SYRIA TO LIBYA AND BEYOND: THE EVOLVING ISIL THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2016

                               __________

                           Serial No. 114-141

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
  98-599 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Brett McGurk, Special Presidential Envoy for the 
  Global Coalition to Counter ISIL, U.S. Department of State.....     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Brett McGurk: Prepared statement...................     9

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    61
Written responses from the Honorable Brett McGurk to questions 
  submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................    62
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    68
  The Honorable David A. Trott, a Representative in Congress from 
    the State of Michigan........................................    72


   FROM IRAQ AND SYRIA TO LIBYA AND BEYOND: THE EVOLVING ISIL THREAT

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. All right, this hearing will come to order. 
Today we will hear from the administration's point-man on its 
effort to combat ISIS. He is back before the committee again. 
Now this is an issue that this committee has raised repeatedly 
since ISIS first began its attacks and we began calling for air 
strikes against ISIS.
    It has now been 2 years since President Obama dismissed 
ISIS as the JV team. Today, the administration claims its goal 
is to ``degrade and ultimately destroy'' ISIS, but it still 
doesn't have a strategy to get that job done. The tide has not 
turned in terms of the growing influence of ISIS.
    Instead, these ``fighters on the back of pickup trucks,'' 
to use the President's term, have grown into a global force, a 
force capable of striking in Europe, in Asia, in Africa, and 
yes, capable of striking here at home in the United States. 
There are now, in terms of groups supporting ISIS, there are 50 
ISIS-linked groups on the ground in 21 separate countries, and 
it is everywhere in cyberspace. And everywhere in cyberspace it 
spews that deadly message to kill.
    Ambassador McGurk--just back from the front lines with 
Syrian Kurds--will note some encouraging developments: Ramadi 
in Iraq was retaken in December, and after some much-needed 
loosening of the rules of engagement, ISIS-controlled oil 
installations in Syria have been finally bombed. This is good. 
But these gains have been too slow to come and too limited. 
Every day that ISIS makes advances, seemingly unchecked, it 
draws recruits to plot new attacks abroad, including the United 
States.
    Meanwhile the Iraqi Government hasn't been able to deliver 
as it should. The Iraqi Kurds, long denied better arms, are 
desperate. Sunni forces, key to any success, do not trust 
Baghdad as the government has failed to include them, in their 
view, in the government and to include them in the armed forces 
in a meaningful way. And across the region, the U.S. is 
perceived--the perception is that we are only willing to back 
non-Sunnis. Now this only empowers ISIS.
    Militarily, the size of the recently announced Special 
Operations Force to target ISIS leadership is a fraction of 
what past efforts have entailed. Our air strikes are still only 
averaging 23 a day--a fraction of what a serious air campaign 
looks like.
    In the failed state of Libya--where militants don't face a 
threat from the air--ISIS has doubled in size. These 6,000 
fighters are several hundred miles from Europe. They have their 
sights on Libya's oil, a tactic that made it the world's 
richest terror group, and despite years of warnings about 
Libya's course the administration's response has been feeble.
    In Afghanistan too, ISIS is spreading. But only recently 
has the President lifted the rules of engagement that were 
preventing our troops from targeting this deadly group. Last 
week, U.S. air strikes finally destroyed an ISIS ``Voice of the 
Caliphate'' radio station there in Afghanistan.
    So what took so long? ISIS propaganda operations are in 
overdrive, they are getting better every day. Yet our 
Government's effort to counter-message--led by the Broadcasting 
Board of Governors--remains in disarray.
    And when it comes to Syria, tragically, the U.S. response 
has been downright shameful. The slaughter goes on. Train and 
equip failed. In December, the U.S. joined Russia to pass a 
U.N. Security Council resolution that required humanitarian aid 
and the end of civilian bombing as part of its plan for ``peace 
talks.'' But rather than stand firm and put pressure on Russia 
to abide by this resolution, Secretary Kerry pushed the 
opposition to the negotiating table even as the Russian and 
Assad regimes intensified their bombings. The result is 
predictable failure.
    As Syria has imploded over the years, rather than tackle 
the problem, the Obama administration has sat on its hands--
paralyzed by a series of ``what ifs.'' Today Assad and Russian 
forces have Aleppo under siege. They are relentlessly bombing 
U.S.-backed Sunni opposition forces that are critical to the 
fight against ISIS.
    Just yesterday, Lieutenant General Steward, the head of the 
Defense Intelligence Agency, warned that ISIS ``will attempt 
attacks on the U.S. homeland,'' in his words, ``in 2016.'' If 
we are to truly defeat ISIS, and we must, the half measures and 
the indecisiveness must stop. I now yield to the ranking 
member, Mr. Eliot Engel from New York, for any opening comments 
he may have.
    Mr. Engel. Thank you very much, Mr. Chairman, and to our 
witness, welcome to the Foreign Affairs Committee, Special 
Envoy McGurk. Brett, I have been impressed for many years by 
your record of service to our country and I want to thank you 
for it. You have notched another remarkable achievement by 
working to negotiate the release of five American prisoners who 
were wrongly held by Iran, and I join the families of these men 
and with all Americans in thanking you for your efforts.
    Today, we are glad to hear from you about the fight against 
ISIS and the dynamic threat the group poses, the way the 
organization is adapting to challenges and growing. The United 
States has spearheaded a coalition of 66 partners with the goal 
of destroying ISIS. Different countries play different roles: 
Cutting off ISIS from its finances, stopping the flow of 
foreign fighters, providing humanitarian support, countering 
ISIS propaganda, joining in air strikes, and building capacity 
of fighters on the ground. This shared burden prevents the 
United States from being drawn into another long war. We must 
defeat ISIS, but we cannot and should not do it alone.
    Between 10,000 coalition air strikes and a relentless press 
of local ground forces, we have seen some progress. From Kobani 
to Mount Sinjar to Tikrit to Ramadi, ISIS has lost a quarter of 
the populated territory it once held in Iraq and Syria, and yet 
the reality across the region remains grim. Syrians continue to 
flee the Assad regime in droves. Assad has been given another 
lifeline by Russian's bombardment of civilian areas, attacks 
that continue to kill women and children. And ISIS latches on 
to these deplorable actions to use for recruitment and 
propaganda.
    Iraq has also had to rely on Shia militants, Shia militias 
loyal to Iran. As a result, Iraq remains divided along 
sectarian lines as Iran gains even greater influence in Iraq. 
This could leave the region with the same cleavages that 
allowed ISIS to thrive in the first place. If we do not address 
the political void and sectarian tensions there will be no 
long-term stability.
    The same themes are already playing out in Libya and Yemen. 
Terrorists love a vacuum. In the absence of real stability, 
rule of law and effective government, ISIS will fill the void. 
Focusing on long-running tensions in these countries will go a 
long way toward denying ISIS safe haven.
    So today I hope we can have a good discussion on how the 
United States should continue responding to the threat. How can 
we stem the growth of ISIS? How do we stay one step ahead of 
them? Sometimes, unfortunately, it seems as if we are only 
halfheartedly going after ISIS and halfheartedly helping the 
Free Syrian Army and others on the ground.
    As you know, for many years, 3 or 4 years, I have been 
calling on aiding the Free Syrian Army, and I believe that when 
we didn't aid them, they withered on the vine and ISIS moved 
into the void. I hope that we will be part of a robust 
campaign, not a tentative one or one that seems like we are 
dragging ourselves in, but a robust campaign to destroy ISIS 
and get rid of Assad. I understand that we cannot do it alone 
nor should we. We need our Arab partners and our Middle East 
partners and other partners on the ground, the Kurds and 
others, to help, but I think we have to lead and I think it is 
important that we do that.
    So I look forward to hearing from our witness on these 
questions and others, and I am glad that Congress is staying 
engaged on this issue in various ways. Another step we can take 
is to push for a robust foreign affairs budget. The President 
sent his budget request to Congress yesterday and I hope that 
we on this committee will make all the needed investments to 
meet these challenges and all our challenges abroad. I hope we 
will soon take up an authorization for the use of military 
force, which gives the President what he needs to grapple with 
this threat without running the risk of another full-scale, 
open-ended commitment of American forces in the Middle East. If 
we are asking American service members to risk their lives in 
the fight against ISIS, we should at the very least, I believe, 
do our job as well.
    So thank you again, Mr. McGurk. Thank you, Mr. Chairman. I 
yield back.
    Chairman Royce. Thank you, Mr. Engel. This morning we are 
pleased to be joined by Special Presidential Envoy Brett 
McGurk. Mr. McGurk was recently promoted from deputy to Special 
Presidential Envoy for the Global Coalition to Counter ISIL. 
Prior to these assignments, Special Envoy McGurk served as the 
Deputy Assistant Secretary of State for Iraq and Iran.
    Mr. McGurk has been a valuable voice in the administration, 
pressing for a more robust U.S. role, and I appreciate that. 
Without objection, the witness' full prepared statement will be 
made part of the record and members will have 5 calendar days 
to submit statements, questions and extraneous materials for 
the record. So we would ask if you could summarize your 
remarks, Ambassador.

 STATEMENT OF THE HONORABLE BRETT MCGURK, SPECIAL PRESIDENTIAL 
ENVOY FOR THE GLOBAL COALITION TO COUNTER ISIL, U.S. DEPARTMENT 
                            OF STATE

    Mr. McGurk. Thank you, Mr. Chairman, Ranking Member Engel, 
Ms. Ros-Lehtinen and members of the committee. It is a real 
honor to be here. I first appeared before you in this committee 
in November 2013 to talk about then what we knew as al-Qaeda in 
Iraq, and the emerging threats which we now know as ISIL. I 
have been back a number of times since then including shortly 
after the fall of Mosul. I deeply value the partnership with 
this committee, and I thank you for your leadership on this 
most pressing national security issue.
    I was in Iraq when Mosul fell in the summer of 2014, and 
the situation then could not have been more serious and dire. 
Baghdad was under threat, thousands were being massacred, 
collapse of the Iraqi security forces--seven entire divisions--
the situation seemed almost hopeless. We had to build a 
foundation and fight back. And that required a new Iraqi 
Government, a better intelligence picture, a military strategy 
to strike ISIL and train local forces, and a political strategy 
to reflect the realities on the ground.
    We also had to build an international coalition from around 
the world, recognizing that this is a global challenge like 
none we have seen before, at one point with more than 30,000 
foreign fighters from 120 countries all around the world. So we 
acted, we acted aggressively, and we are now beginning to see 
some results. However, while the progress is clear, which I 
will discuss, the challenges and threats to our national 
security interests remain acute. As Director of National 
Intelligence Clapper stated yesterday before the Senate Armed 
Services Committee, ISIL remains<greek-l>, quote, deg. ``our 
preeminent terrorist threat.''
    So how do we analyze ISIL? How do we make sense of it? 
Because only by making sense of it with data, analysis, and 
empirical underpinning can we effectively defeat it. We analyze 
ISIL in three main categories. First, its core in Iraq and 
Syria; second, its networks around the world, foreign fighters, 
finance and propaganda; and third, its affiliates, now of which 
there are eight.
    I want to focus in this introductory statement on the core, 
and the core is really key. It is the phony, self-proclaimed 
caliphate that ISIL proclaims to have established, and it is 
one of the main magnets that is attracting people from all 
around the world. So let me start with some facts of what we 
are doing in the core.
    ISIL has now lost 40 percent of its territory in Iraq, more 
than 10 percent of its territory in Syria, it has not won a 
single battle since May, and as you can see in the map that I 
have projected here, the green areas are areas in which since 
the summer of 2014 we have now taken from ISIL. But the 
figures, for example, 40 percent of territory, really does not 
matter. What is important is that this is strategic ground.
    In Iraq, the iconic Sunni cities of Tikrit and Ramadi, in 
Tikrit, 95 percent of the population is now back in their homes 
in the city according to U.N. estimates. In Ramadi, it was the 
first test of Iraqi security forces really acting on their own 
to liberate that iconic city. In Syria, it is not just the 
data, it is what is on the map. The green, taking away the 
entire border area which used to be controlled by Daesh east of 
the Euphrates River, and that border is now green because of 
what happened in the city of Kobani.
    I traveled to Kobani last week in northern Syria, and I was 
brought to the site of where we dropped supplies, where 
President Obama ordered an air drop of military equipment and 
supplies at a key moment in November 2014 when that battle was 
about to be lost.
    I spoke with one of the commanders. He said without that 
air drop they would have been overrun. And it was from that air 
drop and working with the forces on the ground that they were 
able to defeat ISIL--6,000 ISIL fighters lost their lives in 
Kobani--and then expand their presence outward and take away 
that entire border from ISIL. It is a testament to the courage 
of some of the partners we have on the ground and also the many 
challenges ahead.
    I was able to travel to Syria because we now have a 
presence on the ground in Syria and there is no substitute for 
this. By having a presence on the ground we have gained better 
insights every day, and with better insights we can act with 
more devastating effect. Our better intelligence picture is 
allowing us to eliminate ISIL leaders, including 90 senior to 
mid-level leaders over the second half of last year alone, 
including Baghdadi's key deputies, Haji Mutazz, who was his 
number one leader in Iraq, and Abu Sayyaf, who was his number 
one financier.
    Our heroic special operators did a raid in northern Syria 
not long ago in which they killed Abu Sayyaf, and in that raid 
they collected more information than any operation in their 
history, and we learned more than we ever could have imagined 
about ISIL's financial networks. From there, we pooled 
intelligence from across the coalition from our Department of 
Treasury, from the State Department and the intelligence 
community to relentlessly uproot their financial apparatus, and 
that is what we have been doing.
    ISIL is now cutting their salaries for their fighters by 
about 50 percent, and we are seeing the effect that they are 
having by our strikes on their trucks moving oil, on their oil 
platforms and on their cash storage sites.
    Let me go around the map very briefly, if I could, Mr. 
Chairman, just to bring you into the overall campaign and how 
we are approaching the core. I will start at number one. Number 
one is a 98 kilometer stretch of border. It is the only stretch 
of border now that ISIL controls with Turkey. It is its 
remaining sole outlet to the world.
    We have worked very closely with our Turkish partners, 
including a number of meetings with President Erdogan and Prime 
Minister Davutoglu just in the past few months, and they are 
doing quite a lot. They are building berms, they are increasing 
patrols, they are sharing intelligence, they are setting up 
risk analyses, and they are conducting cross-border artillery 
strikes.
    This is having an impact. It is much harder for ISIL 
fighters to get into Syria now than it was even 6 months ago, 
and once they are in it is much harder for them to get out. And 
that is our objective. They can't get in, and when they get in 
they will never get out because they will die in Iraq and 
Syria.
    The impact is in the numbers from our intelligence 
assessments. From the summer of 2014 when the high end estimate 
of about 31,500 foreign fighters in ISIL, but now it is down to 
about 25,000. So the tide of that number is starting to turn. 
We know from their own publications they are now telling their 
fighters, don't come into Syria, go elsewhere. Go into Libya. 
And that is because it is much harder for them to get into 
Syria.
    Moving to number two, Raqqa. Raqqa remains their 
headquarters. It remains their hub. It remains where most of 
their leaders are. It remains where their external plotting 
networks are established. That is why we are going to work with 
our local partners in Syria, a collection of Arabs and Kurds, 
to push on Raqqa and isolate them in Raqqa. And that will be 
ongoing over the coming months.
    I will move quickly in the interest of time over to Iraq 
and I will skip right to number five in Mosul. Mosul will 
remain a tremendous challenge. There are about 1 million people 
in Mosul. It is a politically diverse city and to get it right 
we have to work politically and militarily hand in glove.
    When I was in Iraq last week we met with Iraqi leaders in 
Baghdad and with the Kurdish leadership, including Prime 
Minister Nechirvan Barzani and others, and we have now 
established a joint operational headquarters in Makhmur, which 
is on the map here. And that is where we are going to pool 
Sunni fighters, Kurdish Peshmerga, Iraqi security forces with 
our advisors, with Peshmerga commanders, with Iraqi commanders 
to plan the liberation of Mosul.
    This will be an integrated campaign across multiple lines 
of effort. It will not be a D-Day like campaign. It is not 
going to start on a certain date because it is already 
starting. We are already cutting off the road access to Mosul. 
We are already doing air strikes in Mosul every single day. We 
are already learning more about what Daesh is doing in Mosul. 
That is why we are striking their cash warehouse sites, for 
example. So the Mosul liberation campaign has already begun. 
However, it will be an extremely difficult endeavor and we are 
not going to put a timeline on when Mosul will be liberated, 
but it will.
    Moving south, I will go to number seven which is Tikrit. 
Tikrit, again, an iconic Sunni city in the heart of Saladin 
Province, was totally depopulated by ISIL. Not only that, they 
killed thousands of people in a massacre known as the Camp 
Speicher massacre in the summer of 2014. Iraqi security forces 
with our help were able to liberate the city.
    And most importantly, we are not just focused on defeating 
ISIL but what comes after ISIL and working with the coalition 
and an international stabilization fund that we established 
together with the Government of Iraq. And I give Prime Minister 
Abadi great credit in devolving powers, delegating powers to 
local leaders. We have been able to return the population to 
Tikrit. The U.N. reported in Rome last week at a coalition 
meeting that 95 percent of the citizens of Tikrit are now back.
    We are building on those lessons now. I will go right to 
number eight on the map which is Ramadi. Ramadi was the first 
significant test for the Iraqi security forces since their 
collapse in the summer of 2014. This was an operation which was 
done entirely by the Iraqi security forces and local Sunni 
tribal fighters. And the Sunni tribal fighters in Anbar 
continue to grow in number and capacity. We have about 10,000 
of them now, and I can discuss that in some detail, Mr. 
Chairman.
    We have liberated Ramadi, but the city remains quite 
devastated from the fighting. Nearly every other home is booby 
trapped or has IEDs. And I met with the governor of Anbar 
Province and he told us very specifically what he needs. 
Without getting the counter-IED teams back in there to de-wire 
all these homes which have been booby trapped it will delay the 
return of the population and it is something that we are 
working on now quite aggressively.
    I will move finally, Mr. Chairman, I can go through this 
map in some detail in my testimony, but I want to point out 
number 11. Number 11 is where you see dark red; because as we 
push ISIL and we squeeze them they will try to fill spaces in 
the soft underbelly of Syria. Palmyra they took some time ago. 
That has been in the news. But the little small, dark red 
blotches heading toward Jordan are something that we are very 
focused on. And Jordan, of course, is one of our closest 
partners in the region. We are very focused on Jordan's 
security.
    In October, the President authorized enhanced military 
assistance to Jordan as part of our strategy to intensify the 
counter-ISIL campaign that includes almost $200 million for 
border security to detect and deter threats. I will be in 
Jordan next week with a broad interagency delegation including 
our overall commander of the counter-ISIL campaign, Lieutenant 
General Sean MacFarland, to see His Majesty King Abdullah and 
talk about the threats to Jordan and how we are going to make 
sure that they protect their border.
    That is a very, very brief and very quick summary of the 
most complicated situation imaginable, but I look forward over 
the next 2 hours to answering all of your questions. And I just 
want to close where I began in really thanking this committee 
for the leadership that you have shown, Mr. Chairman and the 
entire committee, on this issue. I value this partnership, and 
now that we look to accelerate the campaign over the next year 
I look forward to the close partnership that I have had with 
you going forward. So with that I look forward to your 
questions.
    [The prepared statement of Mr. McGurk follows:]
    
  
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
               ----------                              

    Chairman Royce. Thank you, Ambassador. Briefly here, you 
argue, as has the administration, about the importance for 
local partners in ISIS-held territory. I certainly agree with 
that. Sunni partners are very important. So if Aleppo, which 
has been encircled, if that falls as the Russians pummel it and 
as Hezbollah and as Assad attempt to collapse Aleppo, will we 
have any Free Syrian Army partners left?
    And then the other concern I have in terms of the Sunni 
population is I understand that the Shia-led government in Iraq 
is working to use the justice system to further push out the 
Sunnis. And so if the central government in Iraq is unwilling 
to make the reforms needed in order to create a more inclusive 
government and inclusive security forces, what will be left of 
Iraq? And what will be left of this effort to include Sunnis in 
our effort to put down ISIS?
    Mr. McGurk. Well, thank you, Mr. Chairman. It is a critical 
question and it is something that we work on every day. Not 
only at the local level where the fight against ISIS is going 
on, but also at the national level. I will start in Iraq with 
the Government of Iraq.
    Iraq just passed a budget through its Council of 
Representatives with a very important provision. It is Article 
40 of its budget. And it allocates 30 percent, of what he 
called the Popular Mobilization Forces, that 30 percent have to 
come from provinces that are actively fighting ISIL. And that 
authorizes almost 30,000 Sunni fighters enrolled in the state 
security services to fight ISIL. We have almost 15,000 now. And 
they are being paid, and they are being paid about $680 to $750 
a month. And that might not sound like much to us, but the 
rural labor earning for an average Iraqi worker is about $36 
per month.
    So Prime Minister Abadi has put his money where his mouth 
is. It is reflected in the budget. He tells us every single day 
he wants to get the local Sunnis in the fight and we are 
helping them. When Ramadi fell, President Obama made the 
decision to deploy U.S. Special Forces to Taqaddum Airbase, 
which is on the map which I showed earlier, just east of Ramadi 
right in the heart between Ramadi and Fallujah. And we deployed 
out there immediately to work with the Iraqi security forces to 
get them back on their feet and to integrate Sunni tribal 
fighters into the fight. And that has been a success.
    In Haditha, our special forces are there working with three 
local tribes who are now mobilized actively fighting ISIL. So 
we are gaining some real capacity in Iraq on the Sunni tribal 
fighter side.
    In Syria, Mr. Chairman, you hit something on the head. 
Because what is happening with the Russian air strikes is that 
they are primarily focused on the opposition and that is 
happening with opposition forces we were working with to fight 
ISIL. And if you look on this map, just north of Aleppo you can 
see the extent of ISIL's western advance. We were working with 
local opposition forces to move east to fight ISIL and that was 
a very sophisticated endeavor.
    But as the Russian air strike campaign has begun, 
particularly north of Aleppo, those fighters now peeled off 
that line to go fight the regime advance and this is causing 
real problems for the counter-ISIL campaign. And, frankly, we 
tell the Russians this very clearly. You say you are fighting 
ISIL, but what you are doing is actually having a detrimental 
effect to the fight against ISIL. And this remains a very 
serious concern.
    Chairman Royce. Thank you. I was going to ask the 
Ambassador also, in addition to this job as Mr. Engel pointed 
out, you helped negotiate the release of the Americans being 
held by Iran. And last year the families of these Americans sat 
at this table. And three of these families are overjoyed by 
your work, and of course we all want answers to Mr. Levinson's 
whereabouts.
    But I am concerned that on the same day these Americans 
were released, the Department sent Iran a check for another 
$1.7 billion on top of the $100 billion that was released at 
that time, and I was going to ask you what you knew about that 
payment. I found that in politics there are rarely 
coincidences, and a State Department spokesman said that Iran 
raised this payment with you as part of the talks on the 
Americans and Iranian Basij commander called this $1.7 billion 
``ransom,'' in his words. And as you know, I have submitted 
detailed questions to the Secretary which we are anxious to 
receive.
    Mr. McGurk. Well, first, we look forward to answering all 
of your detailed questions. This is a very complex negotiation 
that went on for 14 months focused on the issue of prisoners. 
The issue of a Hague settlement was a parallel process. We have 
really had three areas of negotiations with Iranians, really, 
over the last 30 years. There has been The Hague tribunal 
process, and in that process over 30 years almost 4,700 private 
U.S. claims. Every single private U.S. claim has been 
adjudicated by The Hague. Those have all been settled. All that 
really is left is a few of these government to government 
claims.
    And that Hague negotiation with our lawyers at the State 
Department who have been doing this, many of them for decades 
and they would be happy to come up and discuss it with you in 
some detail, they were negotiating with the Iranians over a 
number of issues at The Hague over the fall and they came to 
some important settlement agreements, some important agreements 
on fossils, on artwork, and also an opportunity opened to 
settle this very important issue having to do with a $400 
million FMS claim. And the lawyers who negotiate this were able 
to close that out, which was very important, and they would be 
happy to talk to you about why this was in the interest of U.S. 
taxpayers and the United States.
    We were facing substantial, substantial liability on this 
claim. As I understand it from the lawyers who negotiated this 
we were at the courthouse steps. There was going to be a 
judgment and it would have been potentially in the multiple 
billion dollars more than that we settled on.
    So I think we have your questions, Mr. Chairman. I know we 
will be looking forward to answering those, and our attorneys, 
et al., who really work in this every day, will give you the 
details.
    Chairman Royce. I think some of the details should have 
probably been shared with us during negotiations, but let me 
raise this last point. I have raised Libya with you. The new 
visa waiver law that we passed, you now have a situation of 
foreign fighters traveling to Libya for training.
    It would be possible under that law to categorize foreign 
nationals who travel to Libya as not being qualified for visa-
free entry into the United States, and I was wondering if you 
were involved in discussions with Homeland Security, or if the 
administration was, on that problem. Otherwise we may find some 
of the same challenges we found when out of Syria through 
Turkey to Europe we had ISIS fighters who could have taken 
advantage of the visa waiver program.
    Mr. McGurk. Mr. Chairman, I have not been involved in those 
precise discussions. I am very concerned about the situation in 
Libya, so I am sure that we can have the right follow-up.
    Chairman Royce. I would like to have Libya added to that 
list.
    Mr. McGurk. Thank you.
    Chairman Royce. But thank you. I will go to Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman. In a recent 
op-ed in the Washington Post, former State Department 
officials, Nicholas Burns whom we know well and Jim Jeffrey 
concluded that relying on diplomacy alone will not be effective 
in Syria, and said that--and I quote them:

        ``The Obama team would have to reconsider what it has 
        rejected in the past, the creation of a safe zone in 
        northern Syria to protect civilians along with a no-fly 
        zone to enforce it.''

    A safe zone would allow the refugees to have a place to go 
where they would not be under constant bombardment by Assad or 
Russia. And since Assad remains a magnet for extremists, I 
believe that the longer Assad remains in power, the longer the 
coalition will be fighting ISIS in Syria. Assad's reign only 
exacerbates the refugee crisis, making a safe zone, I believe, 
even more necessary. However, Assistant Secretary Anne 
Patterson said at a committee hearing late last year, and I 
quote her:

        ``There is no option on the table, nor recommended by 
        the Defense Department that does not require a massive, 
        massive amount of air support that would then detract 
        from the effort against ISIL.''

    So let me ask you this, Ambassador. Under what 
circumstances would the administration consider supporting a 
no-fly zone, what are the challenges in establishing a no-fly 
zone or a safe zone, and how has Russian military involvement 
impacted the prospects for a safe zone or no-fly zone? Because 
absent a safe zone, I don't know how innocent Syrians protect 
themselves.
    Mr. McGurk. Congressman, it is something we look at all the 
time. We have actually had a number of internal discussions 
about the possibility of establishing some sort of no-fly zone. 
And you should speak with some of my DoD colleagues about the 
details and difficulties of actually establishing it. It has 
been fully looked at. But everybody would agree with you that 
the situation right now is totally unacceptable.
    I am leaving tonight for Munich where we will have a 
meeting tomorrow with everybody in this international support 
group for Syria which includes Saudi Arabia, Turkey, Qatar, 
also Iran and Russia, us, everybody around the table, and there 
is a recognition that this situation is completely, totally 
unacceptable. We were very close in Vienna not long ago, as 
Secretary Kerry has discussed, to a ceasefire, and we are going 
to work very hard over the coming days to try to put in place a 
ceasefire. Because so long as this conflict is going on it 
makes my job against ISIL all the more difficult, and the 
humanitarian consequences of what is happening is just truly 
atrocious and terrible.
    So we have to get to a way to de-escalate this underlying 
conflict. To de-escalate the underlying conflict there has to 
be a political process that can ultimately lead to a transition 
in Damascus. The struggle we face from time to time is that the 
collapse of the regime in Damascus would open up a vacuum which 
terrorist groups are able to fill and so we want to have a 
political process that can lead to a transition. That is 
something that Secretary Kerry in particular has been working 
very assiduously on, but nobody can underestimate the 
difficulties.
    We are hopeful that in Munich over the coming days we can 
make some progress on a ceasefire, and most importantly on a 
humanitarian corridor. The Russians claim that they are cutting 
off weapons supply corridors, but they are actually cutting off 
humanitarian corridors. So at the very least they need to put 
their money where their mouth is and open up the humanitarian 
corridors immediately to all of these besieged areas that the 
U.N. has identified.
    Mr. Engel. Not long ago we were saying that Assad has got 
to go. Then we were saying that Assad has got to go before we 
can have these discussions. And now we are sort of hedging our 
bets and saying, well, Assad can sort of go at the end of them 
or as long as Assad understands he cannot be part of a new 
Syrian coalition. Doesn't it seem like we just keep 
backtracking and backtracking?
    Mr. McGurk. I think everybody looking at the Syria 
situation recognizes that so long as Assad is in power there 
will never be a stable Syria. Too much has happened. The crimes 
against humanity, everything that he is responsible for, he 
will never be able to govern. His writ will never extend to the 
rest of the country. It is completely impossible.
    And in these conversations we have in Vienna, the Russians 
understand that. The Iranians don't seem to understand that. 
But it is a complete fantasy to think the Assad regime is ever 
going to be able to establish its writ over Syria. And so we 
have to have a way to have a political transition, but we do 
want to do it in a managed way through a political process that 
doesn't open up further vacuums.
    But I agree with you entirely, Congressman. Assad cannot 
remain in power if we are ever going to get out of this 
incredibly difficult situation.
    And as I mentioned, discussed with the chairman, it is a 
question what is going on north of Aleppo. In my job on ISIL, 
in fighting ISIL, we had some real progress to push across what 
we call the Mari line, and the Russian air strikes have pulled 
those forces to fight the regime when they are ready to fight 
ISIL. So what Russia is doing is directly enabling ISIL. So 
that is one of the reasons we are getting together in Munich 
tomorrow, but this will be a very difficult 3 days coming up.
    But we are going to be very firm. The situation is totally 
unacceptable. It is causing humanitarian catastrophe. It is 
strengthening the regime of Assad, and all that does is fuel 
extremists on both sides of the sectarian divide. It fuels the 
Hezbollahs. It fuels the ISILs. It fuels the Nusras. So we have 
to come together as great powers, all of us, Turkey, U.S., 
Saudi Arabia, Russia, and figure out a way to settle this 
conflict down, otherwise it is going to come to haunt all of 
us.
    Mr. Engel. I have one final question. I have been having 
discussions, and in fact, the chairman and I have been having 
discussions with some of our Sunni Arab friends, and they 
express to us frustration at the United States for not being 
more of a player that is deeply involved; that we seem to be 
reluctant to be involved. And they paint a picture of the fact 
that they are ready to come forward if we come forward. If we 
lead, they are ready to do it.
    But they describe a reluctance on the part of the United 
States to get involved, and they say that they believe that 
Russia moved into Syria because they knew that the U.S. wasn't 
moving and wouldn't really be able to do anything or wouldn't 
be willing to do anything against the Russians. How do you 
answer that? They paint a picture of just reluctance on our 
part, of us not really leading. Of us, they would be willing to 
be with us, but we are recalcitrant. How do you answer that?
    Mr. McGurk. Well, in terms of the ISIL campaign, we have 
done over 10,000 air strikes now. We have U.S. forces on the 
ground in Syria. We have U.S. forces on the ground in Iraq. We 
welcome our partners to join us in that endeavor. And we have 
done some real damage to ISIL and we are looking for others to 
join us, to tell you the truth.
    So that is something where I think we have led, and in fact 
Secretary Carter is meeting in Brussels today with the defense 
ministers of the coalition. And one of the things he is putting 
on members of our coalition, including a number of the Arab 
partners, is that ISIL is a threat to you. Saudi Arabia, one of 
our closest friends in the world, ISIL is in Saudi Arabia. And 
the Saudis are doing a lot against ISIL, but of course we want 
them to do more. We want all of our partners to do more.
    So this is a constant discussion we have. Our interests 
don't always align directly with many of our partners' 
interests. This is something that is natural in foreign policy 
with our friends. But this is something that we are discussing 
constantly. I know Foreign Minister Adel al-Jubeir was here 
yesterday. He saw the secretary. We will see him in--I know he 
saw a number of you, and we will see him in Munich tomorrow to 
try to align our approaches.
    But as a leader of the coalition, Congressman, it is 
something I deal with all around the world to try to get a 
focus on this core threat of ISIL and try to align our 
resources accordingly. But when it comes to the Assad regime we 
have to get a political process on track otherwise it is going 
to continue to go on, and that is why we are hopeful over the 
coming days in Munich we can make some progress.
    Mr. Engel. Thank you.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce. Thank 
you, Ranking Member Engel. And welcome back, Special Envoy 
McGurk. It is an honor to be with you. I continue to be stunned 
that the State Department believes still that Russia and 
Iranian engagement in Syria could be a positive development. 
With the help of Iranian forces and Russian air power, we are 
seeing Assad's forces creep closer to Aleppo, as has been 
pointed out a strong base for the opposition, and the regime is 
on the brink of encircling the city in order to starve the 
population with Russia indiscriminately bombing residential 
areas.
    Assistant Secretary Patterson testified to a question I 
asked her in November in a hearing that Assad's atrocities are 
a recruiting tool for ISIS and that it is not possible for us 
to defeat ISIS while Assad's massacres continue with Iran and 
Russia's help. So what steps is the administration taking to 
prevent a massacre of Syria's remaining moderate opposition? 
When will we air drop humanitarian supplies to the people of 
Aleppo? Is that still something that we are going to do?
    And you have said to the chairman and the ranking member 
that Russia is a problem, but does the administration intend to 
take any measure to stop Russia from bombing Syria's civilians, 
and how can we justify asking the Syrian opposition to drop its 
condition that the Assad regime, Russia and Iran cease 
committing these crimes against humanity as a condition to 
continue to the Geneva talks? So I look forward to that answer.
    But let me just bring up two quick points, Mr. Ambassador. 
I wanted to ask you about the future plans for the Iraqi Jewish 
Archives. Can they stay in the United States? I raise it now as 
I have in the past. We have worked together with you and I 
thank you because you have been very engaged on this with the 
Iraqi Government. I don't want the State Department to return 
these precious artifacts, the Iraqi Jewish Archives, and what 
is the fate of the Archives after the exhibit ends its run at 
my alma mater, Florida International University?
    And lastly, now that Iran has been legitimized through the 
JCPOA, received billions of dollars in sanctions relief through 
which it can continue its reign of terror, what guarantees have 
you received from the Iraqis, and have you brought it up to 
protect the residents of Camp Liberty from this newly 
strengthened and well-funded regime in Tehran? You can give me 
a written response on that.
    Will we be providing aerial protection, which is what the 
residents want now, to the Camp Liberty residents, and are we 
going to continue to put T-walls in place or not? But if you 
could answer the question about what we are doing to prevent a 
massacre and air drop humanitarian supplies and the role of 
Russia, thank you, sir.
    Mr. McGurk. Thank you, Ms. Ros-Lehtinen. I want to thank 
you in particular for your cooperation on the very difficult 
issue of the Iraqi Jewish Archives and we are very honored that 
they are on display in your district. And when I was the Iraq 
DAS I worked on this issue quite a bit. I am no longer in that 
role, but I still care very much about it. I understand they 
are scheduled to run through the end of the year. And let me 
take that back to the State Department and get you a very 
detailed answer on that question. And also on the MEK, that is 
something I also continue to follow quite closely. We have made 
some progress in getting those folks out of Iraq, many of them 
going to Albania, but I will also get you a written answer on 
that.
    On the question of the humanitarian situation in Syria, I 
will just repeat what I said. It is completely unacceptable. 
The failure to provide humanitarian assistance to besieged 
communities in Syria is not only an international law 
obligation; it is now anchored by a brand-new U.N. Security 
Council resolution. This is something that we have to open up 
these corridors, period.
    And so first and foremost on the agenda when we get to 
Munich is the humanitarian corridor issue. There are besieged 
communities across Syria, millions of people. Some of them are 
besieged by ISIL. Some of them are besieged by--most of them 
are besieged by the regime. Some of them are besieged by more 
extreme elements of the opposition. All of them should have 
humanitarian access. That is a principle of international law. 
It is bounded by a U.N. Security Council resolution that we all 
agreed to as part of the Syria support group process, and it is 
first and foremost on the agenda in Munich. And again without 
underestimating the difficulty, I am hoping we can come out of 
Munich with some agreements on that.
    Ms. Ros-Lehtinen. Thank you very much, sir. Thank you, 
Chairman Royce.
    Chairman Royce. Thank you. We go now to Mr. David Cicilline 
of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, for holding this 
hearing, and thank you, Mr. McGurk, for being here. I want to 
just focus for a moment on the effort to address the issue of 
the terrorist financing of ISIL. And I know you indicated in 
your written testimony that ISIL controls 80 percent of Syria's 
energy supply and it accounts for 50 percent of their revenues, 
about $500 million a year since 2014.
    And so my first question is who is purchasing this oil 
generating the $500 million of revenue? And you also indicated 
that there are 100 members of a centralized management team as 
well as 1,600 energy related personnel. What are we doing to 
get to those individuals who are facilitating the financing of 
this terrorist organization?
    Mr. McGurk. Thank you, Congressman. So I will elaborate 
what is in my written testimony. You are right. We believe 
ISIL's overall revenue is about $1 billion a year. It is less 
than that now. That is $500 million from energy products. It is 
purchased by a lot of middlemen and it is hard to tell exactly 
where it is going. The Russians claim Turkey is buying most of 
it; that actually is not true. The regime is buying a lot of 
ISIL oil, but what is happening is it is sold to middlemen and 
then it goes to a third party and so it is hard to trace from 
ISIL to the actual end user.
    But it is a significant revenue stream that we are now 
significantly degrading. They are not able to do what they were 
able to do in the past. We had a big debate amongst ourselves 
about when to target the trucks because the truck drivers, most 
of them are ordinary Iraqis and ordinary Syrians. So what we 
did, a very sophisticated campaign in which we--I won't say 
exactly how, but we warned them that if you are driving trucks 
here your days are going to be numbered. And we were able to 
destroy about 400 trucks in one shot with very limited 
collateral damage or civilian deaths, and it has had a 
tremendous impact on their ability to move oil around.
    So we will continue to do that but it is a fundamental 
priority of the overall campaign, not just taking back 
territory but denying their revenue sources. And in Mosul, 
because of our intelligence picture, we were able to target 
where they had cash warehouse sites. I mean, hundreds of 
millions of dollars that is how they pay their fighters in 
Mosul no longer exists.
    Mr. Cicilline. Second, I want to ask you about we have seen 
a lot of the success of ISIL using the Internet and social 
media both to promote their propaganda as well as recruit. And 
I would like to hear a little bit about what we are doing and 
how we are helping to counter that narrative. This is obviously 
a religious based, false argument but an effective one, and not 
a response or narrative that we can necessarily respond to 
effectively as the United States. But are there efforts 
underway so that somebody is responding to this very 
aggressively in the same medium to help stem the flow of 
additional recruits?
    And final question I will ask so you will have time to 
answer both of them is, at the donor conference I know there 
was a commitment by Germany of $1.2 billion, I think, the 
United States over $600 million, but we still aren't seeing the 
same kind of level of support from Saudi Arabia, UAE and 
Kuwait. This is a huge humanitarian crisis of really 
unprecedented magnitude, and what can we do to encourage these 
other countries to play a more generous role in dealing with 
the humanitarian crisis?
    Mr. McGurk. Let me address the messaging issue because it 
is really critical. ISIL, we have looked at this in some 
detail, they have three main messaging campaigns. One is the 
glory of the caliphate. These sun-drenched scenes of children 
eating ice cream cones and come-bring-your-family is a total 
lie, but it is actually the majority of their content. Second 
is a religiously based message primarily focused in the Gulf 
and other Muslim communities, and then third is what gets a lot 
of attention which is the gore and the kind of the executions 
and beheadings. That is actually the smallest number of their 
content.
    But we are combating it at every single level, so we have a 
24/7 hub now in the UAE. The UAE has been a really critical 
partner here. It is called the Sawab Center. I went to see 
them. These are young Emiratis, actually people from all around 
the region working 24/7 to combat the messages. They have had 
really a pretty good effect particularly with the campaign 
which highlighted defectors from ISIL that in their own 
narratives and their own testimony told the world what it was 
really like to be under this organization.
    So I think we are actually making some progress now in the 
messaging campaign. We are working closely with Twitter, with 
YouTube, with Facebook. Twitter just took down about 125,000 
ISIL affiliated, ISIL related sites. And the messaging gets a 
lot easier when we are making progress. If you are doing a 
messaging campaign for the Washington Redskins, it is easier 
when the team is winning than when the team is losing.
    So in 2014 when it looked like ISIL was on the march and 
they would put out these videos of their flag going from Iraq 
to Syria all the way to Italy and Rome, they really can't say 
that with any credibility anymore. Their messages now, their 
spokesman, as I quoted in my written testimony, most of his 
statements now are defending the fact, explaining why they are 
losing so much territory.
    So it has changed quite a bit, but we have to remain at it 
24/7; the UAE has been key. We want to set up a similar hub, 
24/7, in Malaysia because there is a very different messaging 
propaganda component going out to East Asia, and also Europe 
because it is a different campaign there. So we have to check 
that 24/7.
    In terms of the air contributions, I have to say the Saudis 
put in $500 million into Iraqi humanitarian at a critical, 
critical moment in Iraq. I will actually never forget that 
being in Iraq. It was a really critical need and that money 
went to good use and saved an awful lot of lives. I will have 
to get for you, Congressman, the donations from those states at 
the recent London donor's conference. I think there were some 
pretty good contributions, but I will have to come back to you 
with the details.
    Mr. Cicilline. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Chairman Royce. Thank you. We go to Mr. Chris Smith of New 
Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
calling this very important hearing. And Mr. McGurk, welcome, 
again, to the committee and thank you for your good work. Let 
me just ask you a couple of questions. While the 
administration's focus is on ISIS, how is this impacting the 
growth of al-Nusra? Does the focus on ISIS risk allowing other 
groups like al-Nusra to grow in strength, and what is the plan 
to defeat it and other like-minded groups?
    Let me also ask, you point out that fighters, foreign 
fighters, are coming from about 100 countries. And I am 
wondering, the flow back and forth, how many are from the U.S., 
years to date, if you have that number. When you talk about 
groups like Boko Haram, are terrorists from Boko Haram making 
their way to ISIS and back again, or is there no flow there?
    You do talk, and I am glad you do, about degrading the 
global affiliates. Are we, for example, with regards to Boko 
Haram truly training particularly the Nigerians, of course with 
Leahy vetted troops, how to do counterinsurgency on an order 
and scale that will help make them more effective, because 
obviously Boko Haram is on a tear in its terrorism. So if you 
could speak to those I would appreciate it.
    Mr. McGurk. Thank you, Congressman. I want to go briefly 
through your very good questions. Nusra is a real problem and 
as we focus on ISIL we can't take our sights off Nusra. Nusra 
is core al-Qaeda. Its leader Julani reports directly to Ayman 
al-Zawahiri. And while the estimates vary, there are about 
10,000 Nusra affiliated fighters in Syria. We think most of 
them are Syrians who are kind of under the banner of Nusra 
because that is just where they are going to survive.
    But we have to unravel Nusra. When we see a threat 
emanating from Nusra, we target it. The Khorasan group is 
something that we have talked about before. That was a core al-
Qaeda type external plotting cell which we completely 
eliminated. So we are very focused on Nusra. And it is very 
important for you to remind all of us that it is not just ISIL, 
but Nusra is an acute threat to the United States.
    Let me just jump to Boko Haram and the affiliates. A lot of 
the affiliates who are now raising the banner of ISIL, they are 
pre-existing terrorist groups. Boko Haram is a good example. It 
is not like suddenly they became an ISIL affiliate and became a 
fundamentally different problem. It is a problem that is unique 
to that part of the world, to Nigeria, and we have to work with 
our local partners to combat it.
    I think you have asked some good questions about the 
vetting standards, making sure we have a credible force that is 
able to effectively combat it, and I know that we are very 
focused on that. But the affiliates with ISIL that we are most 
concerned about in Libya, for example, and Libya is where it 
wasn't a preexisting movement, they rose the flag of ISIL and 
it drew a lot of recruits like a magnet. We have seen the 
direct flow of resources, of command and control, of propaganda 
from ISIL core into Libya. Right now in Libya, again if we see 
a threat emerging we will not hesitate to act.
    The President ordered a strike on Abu Nabil, the number one 
leader of ISIL in Libya, and he was eliminated. He was an ISIL 
guy, former al-Qaeda in Iraq guy from Iraq, so that just shows 
the connections between ISIL core and Libya, which is very 
concerning. The number of foreign fighters in the United 
States, I think we have those specific numbers. I don't want to 
give it to you just off the top of my head, but I believe it is 
in the low hundreds.
    But our FBI is all over this problem and they are doing a 
great job to protect the country against these threats and they 
will continue to do so, but I will follow up with you on the 
precise figures.
    Mr. Smith. I appreciate it. Just before my time runs out, 
the Boko Haram fighters, is there any exchange between 
fighters? Do any of those go to Syria to fight? And is al-
Shabaab a part of this as well?
    Mr. McGurk. So al-Shabaab is not a formal affiliate, but we 
have found Somalis on the battlefield in Iraq. So these 
jihadist networks, they all, there is a symbiotic relationship. 
The good thing about Iraq and Syria is if they come into Iraq 
and Syria, as I mentioned in my statement, they are unlikely to 
get out. We are going to make sure we kill them in Iraq and 
Syria. But Libya is an emerging threat from Africa because a 
lot of the guys are pooling up to Libya.
    Mr. Smith. Thank you very much.
    Chairman Royce. Thank you. We go to Mr. Gregory Meeks of 
New York.
    Mr. Meeks. Thank you, Mr. Chairman. Let me start with this 
and I want to kind of follow up with what Mr. Cicilline said. 
He talked about Saudi Arabia's activities or asked there about 
their contributions on a humanitarian level. In fighting 
against ISIS or ISIL in Syria, et cetera, I am concerned, 
because a lot of this is Sunni, Shia also, and what the Arab 
states and what the Sunnis, and in particular Saudi Arabia, may 
be doing on a military level on the ground.
    Are they doing--I know initially they sent out some jets, 
et cetera, whether they are still fighting, whether they--what 
are they doing or what contributions are they making on a 
military level in regards to this fight and how does that play 
into our equation?
    Mr. McGurk. So it is something that Secretary Carter has 
discussed quite a bit publicly, and he is discussing in 
Brussels today with our partners. Most of the GCC states were 
with us in the early stages of the air campaign. Right now 
Jordan has renewed their air strikes in Syria which we are 
grateful for. The Emirates, I think, are about to do that. 
Saudi Arabia has been very focused on the conflict in Yemen, of 
course. This is something we discuss with them quite a bit, so 
we are constantly engaged with them about what the particular 
role can be. And I don't want to get ahead of the process, but 
that is something that Secretary Carter is discussing in some 
detail with the defense ministers in Brussels today, including 
Mohammad bin Salman from Saudi Arabia.
    But we need the region to be fully invested in this fight, 
but it is not just military as was mentioned earlier. It is 
also the humanitarian and the stabilization side. In Iraq now, 
as I mentioned, these are iconic Sunni cities that have now 
been cleared of ISIL and now we want to return the population 
to get back on their feet. The internally displaced in Iraq, 
most of them are Sunnis, 70 percent of them are women and girls 
and they need help.
    And so on the humanitarian, on the stabilization side, that 
is something where the region, we are very hopeful can step up 
in a fairly aggressive way. Because we have the programs in 
place, we have the support of the Iraqi Government in place, we 
have U.N. programs in place to help people, but it is an issue 
of the resources.
    And one thing that has really hampered this quite a bit is 
just the collapsing price of oil, which I can go into some 
detail. I mean, Iraq is now facing a monthly, about a $5 
billion financing gap. They are producing more oil than they 
have in some time, over 4 million barrels a day. When I was 
working on Iraq, full time, 5 years ago that would have been 
unimaginable, 4 million barrels a day. That is because of 
decisions the Iraqi Government has made and decisions that we 
have made with them, and that is a real testament to their 
progress.
    But the falling price of oil has just greatly impacted 
their budget situation. It has depleted the resources we had 
hoped we would have to deal with some of these stabilization 
and humanitarian problems. So that is something, Congressman, 
where the region we are very hopeful can contribute.
    Mr. Meeks. Well, I just, because I was just surprised at a 
recent statement that Saudi Arabia made saying that if the 
United States put troops on the ground that they would be right 
behind us militarily. And I was just wondering why, that it has 
to be as you said something where if anybody is going to be on 
the ground so it doesn't look like we are occupying anyone 
again or coming in in that regard, the Sunni especially in 
Sunni territory that they and those from the Arab League be the 
ones that are out in front and not the United States of 
America.
    So when I heard that statement I was just wondering whether 
or not they have been further engaged militarily or not, and 
whether they have shown--and I know about Yemen--but have they 
shown because ISIL is still a threat to them also, and so 
whether they are willing to really step up.
    Same thing to some regards with Turkey and what they may or 
may not be doing. And let me ask you that question then, what 
they may not be doing militarily also in regards to the fight 
with ISIL. What about Turkey?
    Mr. McGurk. Well, Turkey as a part of this process, a very 
intense negotiation and an agreement with them to base our 
planes at Incirlik Airbase which has dramatically decreased the 
flying time to be able to strike ISIL targets. And we are very 
grateful for the agreements we have reached with Turkey in that 
regard.
    Turkey has also, as I mentioned, really worked to seal its 
border, that 98 kilometer strip of border. It is much harder 
for these foreign fighters to get into Syria than it was until 
then. Turkey is also caring for 2.1 million refugees from 
Syria, spending almost $8 billion, something people forget 
about. So Turkey is doing an awful lot here.
    Militarily, they are doing some very important air strikes 
in the north of the country. Right now we are working with them 
to get them back into the campaign, but we are doing that very 
carefully because the conflict with, not conflict but the 
tension between Turkey and Russia after Turkey shot down a 
Russian plane after the Russian plane violated Turkey's 
airspace kind of complicated the picture. So that is something 
we are working very closely with Turkey on. But we are very 
comfortable with Turkey's contributions. They are a critical 
NATO ally of ours and so we will continue to work closely with 
them.
    Mr. Meeks. Great. Thank you. I am out of time.
    Chairman Royce. Thank you. Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Ambassador. Thank 
you for your service. And when you mentioned in the beginning 
of your testimony that Abu Sayyaf had left this world with our 
help, was that the same Abu Sayyaf that was the power in 
Afghanistan 20 years ago, or is this another Abu Sayyaf?
    Mr. McGurk. No. This is an individual that was a legacy al-
Qaeda in Iraq, Zarqawi acolyte, very much from the Iraq-Syria 
theater. He was their head financier.
    Mr. Rohrabacher. Okay. So he is not the same guy who was 
the financier back in----
    Mr. McGurk. Not that I am aware of.
    Mr. Rohrabacher [continuing]. Mujahideen days. How many 
fighters do we have? How many people are fighting Assad, the 
number of fighters that are there, and I guess Aleppo and that 
region?
    Mr. McGurk. I can't put a number on Aleppo. The uppermost 
estimate of our moderate opposition fighter, the uppermost 
estimate I have heard is about 70,000 fighters. That is all the 
way from the south to the north.
    Mr. Rohrabacher. Yes.
    Mr. McGurk. But those are split into hundreds of different 
groups.
    Mr. Rohrabacher. Okay.
    Mr. McGurk. So to bring coherence to that is very 
difficult.
    Mr. Rohrabacher. And are there any of those anti-Assad 
fighters who are fighting ISIL at this point?
    Mr. McGurk. Well, yes. And before the Russian air strike 
campaign, we felt pretty good about some--the word, I guess, is 
coherence and capacity that we were gaining along that Mari 
line which is on the map which I projected. But since then, a 
lot of those guys have peeled off from the ISIL fight to fight 
the regime, which has not been helpful to the ISIL campaign.
    Mr. Rohrabacher. Well, let us just note that this 
administration has told us before that there will be no 
civility unless we get rid of so-and-so or so-and-so, and in 
fact the opposite has been true. In Libya in particular, which 
you outlined today as being a catastrophe, we were told in 
almost the same words that you have used today there is never 
going to be any peace there until we get rid of Gaddafi and in 
fact that is why we have to help the non-Gaddafi forces, and 
now we have testimony of course that ISIL is on the verge of 
taking over Libya. Let me note that I didn't see Assad as ever 
a threat. Was Assad ever a threat to the United States?
    Mr. McGurk. Well, Assad has given sustenance to Hezbollah 
and then terrorist groups for a number of years. He is a threat 
to some of our closest partners in the region.
    Mr. Rohrabacher. Assad was never a threat to the United 
States. Frankly, we Republicans made a mistake when we backed 
our President when he said we have to get rid of Saddam 
Hussein. And frankly, it looks like to me that all of this 
chaos and confusion that you are describing today that 
unfortunately is in your lap to try to correct started when we 
made a mistake that we have to get rid of Saddam Hussein 
because he is a bad guy and he is committing atrocities against 
his own people. And that has destabilized the whole region and 
led to many thousands more people being killed.
    I would think, frankly, from a distance it looks like Assad 
is in that same type of, fighting Assad is the same type of 
situation. Let me ask how many of the ISIL fighters are 
foreigners, meaning from other areas rather than Syria and 
Iraq?
    Mr. McGurk. The total number of foreign fighters that have 
come into the theater are above 30,000, but many of them as I 
mentioned in my opening it has decreased quite a bit. So 
foreign fighters fighting with ISIL now, I probably would put 
in the number of, and according to our most recent estimates, 
of 15,000 or so are left.
    Mr. Rohrabacher. 15,000. And how many of those come from 
places like Chechnya?
    Mr. McGurk. Oh, a lot. And in fact, one example, when I was 
in Iraq recently with the Baiji campaign there was a major 
battle for the Baiji refinery. A very heroic battle that went 
on for almost a year, and we were picking up mostly the 
fighters that our guys were dealing with--speaking Russian.
    Mr. Rohrabacher. So we have all of these thousands of 
radical Islamic terrorist fighters and who come from Russia and 
Chechnya, and so the Russians maybe have something, maybe even 
more important, for them to be involved than us to be involved, 
because they have had exact fighters from their country. I 
don't believe there are any Americans over there with that 
terrorist group.
    Let me just say the idea that the Turkish--that you don't 
know that we don't know where those trucks are going and who is 
purchasing that fuel is unacceptable. Let me just say that 
before the Russians started bombing those trucks, which then 
ignited this outrage from Turkey, that before they did this 
body, this committee, saw evidence day after day after day of 
trucks loaded with fuel, thus meaning supplies and money and 
wealth that would go into ISIL were just not touched. How much 
evidence, Mr. Chairman, did we have, overwhelming evidence that 
this administration wasn't doing a thing about it and once the 
Russians started then we did.
    I think that this idea that----
    Mr. McGurk. Well, if I could just correct the record just 
to raise a point. I think once the French, it was the French, 
after the attack in Paris attributable to ISIS forces the 
French made the decision to hit those targets on the open 
highway.
    Mr. Rohrabacher. Let me also note that the Russians were 
doing that. However, you never know who the Russians are 
hitting because that is their business. They haven't been able 
to outline it for us.
    I would just say this. That people who are a threat to the 
United States of America, to our people, the terrorist network 
from around the world, we should be working closely with anyone 
like that who is not a threat to us. And whether or not they 
oppress their own people, I am sorry. We didn't like Saddam 
Hussein, and look what we did to the world by getting rid of 
him. We didn't like Gaddafi. There is a number of cases like 
this. And the idea, our question shouldn't be how do we get rid 
of Assad, and spending lots of attention and resources on that. 
Our vision should be how do we get rid of ISIL and these 
radical Islamists who will terrorize the western world and 
murder us if they get a chance? Thank you very much, Mr. 
Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher. We now go to 
Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And I certainly want 
to concur with my friend from California in his critique of the 
mistake by Republicans in supporting the reckless foreign 
policy of George W. Bush. I certainly want to associate myself 
with those remarks.
    Mr. Rohrabacher. Absolutely.
    Mr. Connolly. I will point out though that some of the 
current critique like Libya, it would be fun to replay video of 
my colleagues who criticized President Obama for not being more 
involved in Libya at the time, for being too reluctant, for not 
taking the lead and being at the forefront of the revolution 
against Gaddafi, and now we are bemoaning the fact that the 
stability was a victim as well as the Gaddafi regime.
    So that was then, this is now. Welcome, Ambassador McGurk. 
Let me start with Russia, one of the favorite topics of my 
friend from California. How concerned are we that Russia's air 
strikes in Syria are non-ISIL focused and, in fact, they have 
targeted either deliberately or just coincidentally non-ISIL 
insurgent groups that we were hoping to use as part of the 
coalition against Assad?
    Mr. McGurk. It is a huge problem, and----
    Mr. Connolly. Could you say that louder? I couldn't hear 
you.
    Mr. McGurk. Yes, it is a huge problem. They say they want 
to fight ISIL and Nusra, but they are hitting groups that were 
ready, as I mentioned, ready to fight ISIL. So this is where we 
just have to be honest. They are hitting, 70 percent of their 
air strikes are against the opposition. Many of those 
opposition groups are ready to fight ISIL.
    Mr. Connolly. So we now have a situation where the Russian 
activity in Syria is directly in conflict with western goals. 
Is that correct? Would that be fair?
    Mr. McGurk. You can't put it in total black and white terms 
because there are some overlapping interests. They are hitting 
ISIL around Palmyra, so I want to acknowledge that.
    Mr. Connolly. Yes, but given the fact you said 70 percent 
we don't want to equivocate.
    Mr. McGurk. But at very strategic locations like the Mari 
line north of Aleppo their air strikes have helped ISIL.
    Mr. Connolly. Is the United States prepared to do something 
about that besides a diplomatic protest?
    Mr. McGurk. Well, as I think the Secretary said yesterday, 
I think we have to focus on the diplomatic process and that is 
why we are going to get together tomorrow in Munich. But we 
also have to be thinking ahead in the event that that doesn't 
work.
    Mr. Connolly. Yes. Well, all right. I think it was 
Frederick the Great who said, ``L'audace, l'audace, toujours 
l'audace.'' One needs to be bold. I hope diplomatic protests 
work, but we cannot afford to have Russia countermanding our 
activities which have been difficult and hard to piece together 
on the field in Syria. And it just seems to me we will need to 
maybe follow Frederick the Great's advice.
    Tell me a little bit about the complications of working 
with the Kurds. From my point of view, and I think a lot of my 
colleagues' on this committee, the Kurds are pro-American. They 
are willing to fight on the ground. They have had territorial 
gains. They have actually beaten ISIL on the battlefield more 
than once. They are critical in looking at the looming fight 
with respect to Aleppo, but they have problems with the central 
government and they have had other problems with some of our 
allies in the region like Turkey. How complicated is that 
relationship, and what ought to be the U.S. posture with 
respect to training, equipping, and financing the Peshmerga?
    Mr. McGurk. Well, Congressman, I will start in Iraq. There 
are vestiges of what used to happen under the government of 
former Prime Minister Maliki in which the relationship was very 
difficult. With Abadi it has been very different. And I just 
want to be clear. Every single shipment of weapons or supplies 
that we wanted to send to the Kurds has gone. Nothing has been 
held up by the central government under Prime Minister Abadi, I 
mean zero. Under the ITEF that was approved for this----
    Mr. Connolly. But they are not paying the soldiers.
    Mr. McGurk. Well, a lot of people in Iraq are not getting 
paid. I mean, what is happening now in Iraq in terms of the oil 
allocation, the Kurds are exporting their oil on their own and 
keeping those revenues and they are not therefore getting the 
revenues from the south, which is actually an equitable 
exchange.
    But as I mentioned, Iraq, writ large, has focused every 
single month now a $5 billion funding deficit. That is a 
problem writ large. For the Kurdish Peshmerga there is about a 
$400 million monthly gap. Peshmerga salaries are about $50 
million a month. So we want to focus on this in a holistic way 
in working with the World Bank, the IMF, with the international 
financial institutions. I think our budget requests will have 
some recommendations for how we might help the Iraqis here, but 
we want to focus on it holistically.
    But the Kurds will have what they need to fight ISIL. They 
will have what they need to be successful in the Mosul 
campaign, no question about it. I will see President Barzani. I 
believe he is going to be in Munich so I will look forward to 
seeing him. Prime Minister Abadi will also be in Munich.
    When I was in Iraq last week, a very senior delegation from 
the Kurdistan Regional Government was in Baghdad to meet with 
Prime Minister Abadi. That relationship is very good right now 
and we want to keep it that way. The Kurds in the north in Iraq 
also have a lot of political divisions that I encourage them as 
a close friend of theirs to try to find a way to resolve. 
Because when the ISIL wolf was at the door all the Kurds were 
united.
    Syrian Kurds, the Iraqi Kurds, everybody was united, 
particularly in that moment at Kobani when the Iraqi Kurdish 
Peshmerga went through Turkey to fight in Kobani, and a 
historical moment that I was a part of. Now that the ISIL 
threat has receded a little bit all of these divisions have 
opened up.
    So there are three Kurdish parties in the north; there are 
great political divisions there. There are divisions between 
the Syrian Kurds and the Kurds in northern Iraq. Our message to 
them is that this fight is not over. The entire southern 
border, the Iraqi Kurdistan region, is controlled by ISIL. So 
long as that is the case there is not going to be a stable 
situation there, so our advice is to unite against the threat 
against ISIL despite all the difference. There are a lot of 
differences. Meanwhile, we have to help them with the financial 
difficulties and it is something I look forward to working with 
this committee to do.
    Mr. Connolly. Mr. Chairman, I am glad to hear that. I think 
that is essential, and I think we need to be providing that 
financial support because they are willing to fight. Thank you, 
Mr. Chairman.
    Chairman Royce. Thank you, Gerry. Okay, Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. ISIS is deliberately 
targeting religious minorities, specifically Christians. 
Christians have been executed by the thousands. Clergy has been 
assassinated. Jihadists in Mosul stamped the homes of 
Christians with an ``N'' for Nazarene, enforces ``convert or 
die,'' convert to their way of thinking or you die. Christian 
females were sold in slave markets. Three of them were featured 
by the New York Times magazine last summer. ISIS' magazine, 
Dabiq, approves the enslavement of Christian girls in Nigeria 
and posts the prices for selling them on the marketplace.
    The Pope has said that this is genocide. I mention these 
things to get your opinion on this issue specifically of 
genocide. The Omnibus bill that was passed, the President 
signed, requires that the administration determine whether or 
not religious minorities like Christians, Shia Muslims, Yazidis 
suffer genocide, specific term, by the hands of ISIS, by March 
the 18th. Can you give us some insight on whether or not the 
United States will take the position that what ISIS does 
against religious minorities is genocide or not?
    Mr. McGurk. Thank you, Congressman. And we are focused on 
answering that legislative request, and our lawyers are 
deeply--as you said, genocide is a very specific term so it is 
a legal determination, and we are looking at it, I believe, 
across the board.
    And there is no question everything that you said is true 
and more. What ISIL has done to the Christian community and to 
minority communities throughout particularly Iraq and Syria is 
unbelievable, and then on top of it destroying our common 
heritage, our common culture, our ancient history. This is why 
we have to destroy this terrorist organization, period. And 
what we want to do particularly in liberating some of these 
areas near Mosul is return Christians to their ancestral 
homeland and that is something we are very focused on.
    I meet regularly in Erbil with Archbishop Warda, when I am 
in Baghdad I try to see the patriarch Archbishop Sako to try to 
return the Christian communities to their homes, and one thing 
that drives us all in fact, particularly for this campaign in 
northern Nineveh Province near Mosul, is to help us do that. 
Because they have been driven out of their homes in the most 
atrocious manner possible and we have to work to get them back.
    In Sinjar, I again have to praise our friends in the 
Peshmerga. They liberated Sinjar from ISIL about 3 or 4 months 
ago, a very successful operation. Sinjar is aware of course. 
ISIL came in and enslaved thousands of Yazidis killing many of 
the young men and taking off the women, thousands of them, to 
enslave the women. This is why we have to destroy this barbaric 
terrorist organization and, but in response to this specific 
request about the genocide determination that is something that 
I know our lawyers are working on right now.
    Mr. Poe. Do you see any reason why the administration won't 
be able to comply on March 18th and we will get a verdict one 
way or another?
    Mr. McGurk. No, I think we will meet that deadline.
    Mr. Poe. Okay, another question dealing with the Omnibus. 
There was an amendment that I put in, or I had put in, to the 
Omnibus bill that requires a strategy to defeat ISIS, and it 
was passed into law that there would be a strategy by the 
administration to what we are going to do to defeat ISIS by 
June the 18th. As far as I think there is no real concrete 
strategy to defeat ISIS. Not contain, but to defeat ISIS. June 
18th is the deadline. Do you see any reason based on your 
expertise why we won't be able to get that strategy by June the 
18th?
    Mr. McGurk. Well, in terms of strategy we are going to 
suffocate this network every single which way. It is like an 
Anaconda strategy, constant pressure, the financial network, 
the foreign fighter network, the propaganda network, its 
ability to control territory. That is exactly what we are doing 
across the board. So in Iraq and Syria, as I explained in some 
detail, we are working to take away their territory. The global 
networks, we are working to cut off and slice off their foreign 
fighter networks.
    Mr. Poe. So we will have a strategy to defeat ISIS that is 
concrete. I mean, the train and equip that was a disaster and 
the President has even said that that was a disaster. So, and I 
am not going to be argumentative, but will we have a concrete 
strategy so the American public, so Bubba down there in Texas, 
knows what the United States is going to do to defeat ISIS? Do 
you see any reason why we won't have that in writing for us and 
the American public by June the 18th? That is really the 
question.
    Mr. McGurk. No, we have a strategy now, so I----
    Mr. Poe. Well, part of it is not working. So are we just 
going to get the same strategy? That is really my question. Is 
it going to be the same thing or is it going to be a concrete 
strategy? This is something that we can understand that we will 
defeat. We go after the oil fields, but we go after the trucks 
but we don't bomb the oil fields. Things like that in tactics.
    Mr. McGurk. I understand. The things that haven't worked we 
have already adjusted. So I will follow up with you with more 
specific details so you can have that very clear narrative laid 
down.
    Mr. Poe. So we will see that strategy by June 18th. I yield 
back.
    Chairman Royce. We go to Karen Bass of California.
    Ms. Bass. Thank you again for your testimony and your time 
here in our hearing. I wanted to ask you a few questions. 
Congressman Smith was asking you about Boko Haram and Africa, 
and I would like to focus some of my questions there as well. 
One of the things that has been just a little frustrating is 
when we think of Boko Haram and ISIS and knowing that Boko 
Haram actually has, their reign of terror has actually 
continued every day and at the end of last year actually killed 
more people than ISIS did.
    And so I am concerned, especially with what is happening in 
Libya, the deterioration in Libya, and knowing when Libya first 
fell it essentially led to a coup in Mali. And so I am 
wondering what you are seeing now, especially with ISIS 
increasing its involvement and occupation in Libya. What do you 
think or what do you see the fallout being in other countries?
    Mr. McGurk. Well, as I mentioned, Libya remains an acute 
focus because Libya is where, unlike in Boko Haram which is a 
preexisting problem----
    Ms. Bass. Right.
    Mr. McGurk [continuing]. Terrorist problem for ISIL, the 
fact that they have now raised an ISIL flag doesn't 
fundamentally change the nature of the problem. ISIL in Libya 
is different. So in Libya what we are working very hard to do--
one of my colleagues, the Special Envoy for Libya Jonathan 
Winer, we were just in Rome together for the coalition meeting 
on ISIL working to form the Government of National Accord, a 
national unity government in Libya, and hoping to get that done 
very soon. And the U.N. Special Envoy Martin Kobler is also a 
close friend of mine. I worked with him for years in Iraq. I 
know he has been working day and night to get this done.
    And we have to have that because you need a foundational 
partner. I mentioned in the summer of 2014 it was very 
important to get the new Iraqi Government formed. Iraq had just 
had an election; it was going through the government formation 
process. Had we come into Iraq in a very major way militarily 
before we had a government and a foundational partner, it would 
have been hard to, I think, build the coherence that we needed 
to really push back effectively and aggressively.
    So the sequencing in Libya is to try to get this national 
government formed and then to work with it to come up with a 
strategy to begin to combat Libya. But I will say, if that 
takes some time and we see threats emerging to our own national 
security interests, the President has shown he will take 
military action in Libya. And that is why we killed the overall 
ISIL leader in Libya, Abu Nabil. So those sorts of things will 
continue to be ongoing. But the political and the military here 
is quite intertwined, and so we are hoping to get that 
government formed very soon.
    Ms. Bass. And so while we are doing that--and I absolutely 
understand and recognize the significance and importance of 
that--are you seeing though any involvement in terms of either 
ISIL folks moving south or moving weapons, which is what was 
the situation was in Mali, while we are working to stabilize 
the government--and I absolutely understand that.
    Mr. McGurk. What I have seen, Congresswoman, is the flow 
north to Libya, primarily. They seem to be in Libya doing what 
they did in Syria, establish state-like structures. So in 
Sirte, right in the central coast, and then they are trying to 
establish, you can see training camps popping up elsewhere. But 
they are trying to establish that state-like structure. So in 
their own Dabiq magazine, their own open source magazine, says 
come to Libya. They are trying to flow resources to Libya. If 
they can establish themselves there in a very rooted way and 
get rooted, then the risk will be it flows outward.
    Ms. Bass. I see.
    Mr. McGurk. So we are going to try to make sure that they 
can't do that.
    Ms. Bass. So back to Boko Haram, and I understand Boko 
Haram was preexisting and all and the significance of them 
raising the flag, if it was more symbolic, are they getting any 
resources, any of the financial resources from ISIL or really 
was it just symbolic?
    Mr. McGurk. We have seen some media coordination, so some 
of the Boko Haram media products have been a little more 
sophisticated which shows some connections with ISIL. But again 
not the type of direct weapons flow, finance, just because Boko 
Haram was already a self-contained entity. But we have to work 
with the Nigerians to get at the Boko Haram problem, period. 
Whether it calls itself ISIL or Boko Haram doesn't really 
matter. It is a fundamental problem.
    Ms. Bass. And so the attack that took place in Mali 
recently, took place right after France, what do you know of 
that in terms of its relationship to ISIL? I believe it was al-
Qaeda.
    Mr. McGurk. Yes. So this is where things, we don't want to 
paint with too sharp of a brush because al-Qaeda often has the 
same goals. That was an al-Qaeda attack. That was not an ISIL 
attack. But it doesn't matter. It doesn't matter if ISIL is 
attacking your hotel or al-Qaeda is attacking the hotel, these 
are huge problems. So Mali, the French have really taken a 
major lead on the Mali side. Have degraded that network, but 
obviously it is still able to launch attacks like that.
    Ms. Bass. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you, Ms. Bass. Mr. Cook 
of California.
    Mr. Cook. Thank you, Madam Chair. Thank you, Mr. Ambassador 
for being here. I don't envy your job. Very, very difficult. I 
don't have your sense of optimism about Syria. With the 
Russians supporting him, I think he is, it is going to be very, 
very tough to dislodge him.
    Picking up on that question of the Turks and the Kurds, 
point blank, is there any hope for a separate homeland for the 
Kurdistan? I don't think geography favors it, but we have 
disappointed the Kurds so many times, and after all the 
fighting and everything else and particularly with the pressure 
with the Kurds, I just don't, I think we are going to betray 
them again. Can you comment on that?
    Mr. McGurk. Well, the Kurds, and I have dealt with my 
friends the Kurds and the Kurdistan region of Iraq for almost a 
decade now, and you are right. There is a historical memory of 
what happened to the Kurds after World War I, which is 
something I think we have to all recognize and be quite 
sympathetic to.
    The Kurds in northern Syria we have developed a 
relationship with over the last 18 months or so in the counter-
ISIL campaign. I was able to go into northern Syria last week 
and meet a number of them, and they had the same, it is a very 
similar, historical narrative. However, at this moment in time 
creating new independent states is not something I think that 
would be particularly stabilizing.
    So when it comes to the northern Iraq and the Kurds, as I 
mentioned, I think before something like that can be discussed 
in a serious way, first, you have to get ISIL off the southern 
border. It is all Jihadistan on the entire southern border of 
northern Iraq in the Kurdistan region. Second, the economic 
situation has to stabilize, and third, the political situation 
has to stabilize.
    So right now I think the Kurds of northern Iraq recognize 
this. Nobody is trying to do the impossible and create a 
unified Iraq that is a glowing democracy, but a Federal Iraq 
which is defined in their constitution which empowers local 
leaders, empowers the Sunnis in the provinces, empowers the 
Kurds in northern Iraq, empowers the Shia in southern Iraq, is 
something that is realistic. It is interwoven in Iraq's 
constitution and something we very much support.
    Mr. Cook. Okay. Thank you very much. The other question I 
had was I just got back from the Middle East, and a couple of 
things. Incirlik. Our sorties from Incirlik really, really help 
our pilots from the Gulf States. Eight hours flying down there, 
I don't know how they do it. I really don't.
    The problem is, in the past is the Turks have been, well, 
we will control all the air operations about Incirlik. And I 
just hope that that doesn't go back to the way it was, say, a 
year or 2 years ago where they had almost complete control over 
air ops and what was going in. I know that is kind of a 
military/foreign affairs question, but I am very, very nervous 
about Erdogan and the politics and how that affects that 
particular base. I am not really sure sometimes why we even 
have it there other than it is very, very close in the Middle 
East.
    Mr. McGurk. So that is a question for my military 
colleagues, but I have been to Incirlik, met our pilots there. 
The agreement when it comes to the anti-ISIL campaign is that 
those planes fly within the air coalition of the counter-ISIL 
campaign which is coordinated out of Qatar. And so we do, every 
day there is an air tasking order which goes out and so those 
planes out of Incirlik are integrated with that. So it is part 
of the overall cohesive campaign.
    Mr. Cook. No, and I just got back from Qatar and I--but I 
am just very, very nervous about the politics of Turkey.
    The last question I had was about Saudi, the Gulf States 
and everything else. Sometimes I think we are led to believe 
that their number one focus is ISIS. No, the impression I have 
is it is all about the war in Yemen. And their forces and 
everything else--yeah, yeah, we are committed to that--but the 
States that I talk to, it is all about what is going on with 
Yemen and particularly the influence of the Saudis in leading 
that coalition there. Could you comment on that?
    Mr. McGurk. You are right. Yemen is a primary focus in a 
lot of those capitals. But you can have a different 
conversation from Riyadh to Cairo to Abu Dhabi to Doha 
depending on where you are. I mean, this is not necessarily 
homogenous.
    Mr. Cook. I am just looking at resources that are going 
into Yemen right now.
    Mr. McGurk. Yes. Yemen has definitely been a major focus of 
the Saudis and for good reason. It is right on their border. So 
one reason we are working very hard to try to de-escalate that 
conflict is so we can focus minds and attentions on ISIL, which 
we do consider the most fundamental threat.
    Mr. Cook. Thank you very much for your answers. I yield 
back.
    Ms. Ros-Lehtinen. Thank you. Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair. ISIS has proven to be 
particularly effective at fundraising. Estimates in 2014 was 
that they were raising about $3 million a day, originally 
through oil revenues and the sale of oil through the black 
market, and then through territorial gains where they would tax 
the people, provide services but tax and provide protection and 
basically operating a corrupt society whereby they would gain a 
lot of revenue.
    How much is known about ISIS funding from Sunni Arab 
countries, particularly Saudi Arabia, who I think views the 
existential threat to them as Iranian territorial gains, and 
Iraq, clearly with the direct involvement of Qasem Soleimani, 
and in Syria under an Alawite government which is a variant of 
Shia? So I suppose my question is Saudi Arabian influence in 
helping to finance ISIS terrorist activity.
    Mr. McGurk. We certainly don't see any indications of that 
and the Saudis have been very close partners on the 
counterterrorism side for some time. What makes ISIL different 
than al-Qaeda or some of these other jihadist groups is that 
they don't really rely on outside financing and funding. When 
there was some evidence of that we have worked with Kuwait and 
others to really shut that down. My colleagues in the Treasury 
Department, Adam Szubin and others, have done a great job on 
that, and Danny Glaser.
    But what makes ISIL different, because as you said, 
Congressman, it controls vast swaths of territory, has millions 
of people under its control, it acts through taxes and 
extortion to have a revenue base. So to cut at its finance 
streams--very early on a couple years ago we might have said, 
oh, there must be a lot of outside funding coming in, but in 
fact it is locally generated. So that is why we are--and it is 
true. The French led in this. After Paris, we of course helped 
them. But cutting off their ability to move oil, cutting off 
their ability to move energy supplies, cutting off their 
ability to store cash, which is something we have done in 
Mosul, so to cut off the finances you have to focus on that 
core in Iraq and Syria where it is controlling territory and 
resources.
    Mr. Higgins. How many U.S.-led air strikes in Iraq and 
Syria in the past year?
    Mr. McGurk. I mean, total air strikes, Congressman, it is 
about 10,000 now. I can get you the breakdown. I mean, total 
air strikes as of yesterday, 9,901 to be specific. There are 
about 6,615 in Iraq, 3,286 in Syria. The U.S. has conducted 
more than 7,000 of those and the rest of the coalition about 
2,300.
    Mr. Higgins. And in the past year, ISIS has lost 40 percent 
of its territorial gains in Iraq and 10 percent of its 
territorial gains in Syria?
    Mr. McGurk. Yes.
    Mr. Higgins. Okay. ISIS, the one thing that is constant, 
reading Michael Weiss' book, ``ISIS: Inside the Army of 
Terror,'' Joby Warrick's book, ``Black Flags,'' the one thing 
that seems constant about ISIS is change. And ISIS has evolved 
in its reach and organizational ability. The ISIS presence in 
Libya, I think, is particularly disturbing. It is a pivotal 
stronghold in North Africa.
    Africa is, there is a lot of instability to exploit in 
Africa. You have 55 countries in that continent, many of which 
are very, very unstable from South Sudan to just, there is a 
lot of countries to exploit. So my concern is that while we may 
be influencing a loss of territorial control in both Iraq and 
Syria, what about the ISIS threat in expanding into other 
countries in the continent of Africa?
    Mr. McGurk. Again it is a great question. And as we analyze 
it and as we discuss this with intelligence services and the 
governments in all of these different capitals all around the 
world, the common theme we hear, I mean, I have heard this from 
Malaysia to Brussels to the Gulf, is that this false notion of 
this caliphate is what is drawing so many young people to this 
dangerous movement. And that is why we are focused on the core 
and shrinking that overall territory.
    And its narrative, in those books that you mention its 
narrative is one of expansion and conquest. So we had to show 
that actually you are not expanding, you are actually 
shrinking, and if you go to join this phony caliphate you are 
not going to live a glorious life with ice cream cones like 
which is in their propaganda, you are actually going to die a 
pretty miserable death there.
    Now some of these people want to go die a miserable death 
and we are happy to oblige them, but we have to shrink the 
caliphate, their phony notion of a caliphate, in order to also 
dry up the global networks. That does not mean as we defeat 
ISIL that there won't be a global jihadist terrorism problem 
under different banners. That is something that is going to be 
with us for some time.
    Mr. Higgins. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins. My Florida 
colleague, Mr. DeSantis.
    Mr. DeSantis. Mr. McGurk, you just said that there will 
still be a global jihadist problem and I agree with that. And I 
notice in your written testimony that there was not any 
reference explicitly to either Iran or Hezbollah particularly 
with respect to the destabilizing role that they both play in 
Iraq and in Syria. They have murdered Sunni civilians, and 
Assad obviously drives people, Sunni Arabs who if the choice is 
between a militant Shiite force or a government backed by Iran 
and ISIS, which is at least Sunni, many of them unfortunately 
are driven to ISIS. So was the exclusion of Iran's contribution 
to the problem deliberate, or was that just something that you 
omitted?
    Mr. McGurk. No, certainly not. Let me take it on directly. 
When Mosul fell in the summer of 2014, Grand Ayatollah Sistani 
in Najaf issued a fatwa saying everybody rise up and protect 
the country. And it was a really critical moment, and had he 
not done that I think it would have been actually very hard to 
check what ISIL was doing because they were just on a rampage 
and he would cause a massive panic in the country.
    You had about 80,000 volunteers kind of rise up and join 
the ranks to defend Iraq. Most of them in those early days are 
Shia from the south and most of them are nationalists, they 
answer to the government. But there is a segment of them, maybe 
10,000 to 15,000 who are actually answerable to militias or 
that are controlled by Iran. And this is a huge concern for us, 
it is a huge concern for the Government of Iraq, and it is a 
huge concern for Prime Minister Abadi. Prime Minister Abadi, 
when he was here in Washington, said publicly that if Iran is 
operating a militia on Iraqi soil outside the command of the 
Iraqi Government that would be a hostile act against Iraq. So 
he has been very clear about this.
    When we see abuses and violations of human rights the 
Government of Iraq has acted. Just recently there were some 
reports of Shia militia violence in Diyala Province, which has 
always been a hotbed of extremism on both sides of the 
sectarian divide. Prime Minister Abadi went to the site twice, 
and just last week they have arrested nine individuals from 
some of these militias as part of that investigation.
    So this is a serious problem. It is something that we are 
focused on all the time. But we don't want to paint all of 
these volunteers, many of whom are Shia, within the same brush 
because that simply wouldn't be true.
    Mr. DeSantis. But what about something like in Al Anbar 
Province? I mean, the administration has touted some of the 
advances in places like Ramadi, but my understanding is that is 
powered a lot by Shia forces, including some of the Iranian 
backed forces. And so what are you doing to empower the Sunni 
tribal forces and the Sunni tribal elders? Because it seems to 
me that driving ISIS out of places like Ramadi is obviously 
something that is desirable, but the notion that those Sunni 
Arabs are going to be happy living under forces or a government 
that they see as being dominated by Iran and Shia, that is 
probably going to be a tough sell.
    Mr. McGurk. So very much agree with you. So when it came to 
Ramadi it was the Government of Iraq's decision to ensure that 
that operation was conducted by the Iraqi security forces, the 
Iraqi counterterrorism forces, and local Sunni tribal fighters.
    Mr. DeSantis. So they were integrated with the security 
forces?
    Mr. McGurk. They were integrated in the campaign, and the 
Popular Mobilization Forces from the Shia side of the street 
were not a part of that Ramadi campaign. And that was very 
important, because we wanted to show that the Iraqi security 
forces can do this, and, because what is so important, whether 
Sunni or Shias, is locals who know their territory and know 
their neighborhood, who know what it is like, who know the 
alleys and the back streets. That you get locals invested in 
the fight.
    So in Anbar now we have about 10,000 of these tribal 
fighters. They are invested in the fight. They are getting 
paid. I gave the figures earlier in my testimony. But it is a 
constant effort. But we have full support from the new 
government in Iraq and Prime Minister Abadi. We have full 
support from the governor of Anbar Province, Governor al-Rawi, 
and they are working closely with us.
    We have two platforms in Anbar Province, one at Al Asad 
Airbase and one at Taqaddum Airbase. We are working every day 
with the Iraqi security forces and these tribal fighters to get 
them in the fight and they are making real gains. They were 
just on defense, now they are moving on offense, they are doing 
operations so it is moving the right way.
    Mr. DeSantis. Just a final question will be with respect to 
the Kurds, and I think a lot of my colleagues share this view. 
I think that they are pro-American forces that we should be 
supporting. But Turkey does not accept the actions of a lot of 
the Kurds, so there are problems there--you have one of our 
NATO partners essentially opposing some of our battlefield 
allies. And so can you address the conflict there between 
Turkey and some of the Kurdish fighters?
    Mr. McGurk. Let me first say Turkey faces a real threat 
from the PKK. So we have to recognize that this conflict 
between Turkey and the PKK, which flared up again over the 
summer, began if you run the timeline when the PKK killed a 
number of Turkish police officers. And I have been very clear 
about that. Turkey has a right to respond in its own self 
defense.
    At the same time, this conflict has now escalated to the 
point where we want to work very hard to try to de-escalate it, 
and Vice President Biden discussed this with President Erdogan 
last week, because the more this is going on the more it drives 
people to the ranks of really extreme militarism which is very 
dangerous. So we want to protect Turkey against the PKK and 
that is something we are going to help them do, we are going to 
continue to help them do.
    But we also want to strengthen the Kurds in northern Syria. 
The Kurds in northern Syria have joined a conglomeration; have 
built a coalition force with Arabs and Christians and Syrian--I 
met a number of them--under the banner of the Syrian Democratic 
Forces. They have just put out a political platform. It makes 
clear that they want to be part of Syria. It makes clear that 
they want to have positive relations with their neighbors, 
which means Turkey. They don't want to interfere in those 
relations, which means distancing from any relation with the 
PKK.
    This will remain a work in progress, but something that we 
are going to work on every day. But most importantly we will 
continue to work with Turkey to protect itself against the PKK 
militarism, which is extremely dangerous and which is killing 
Turkish soldiers and police officers every day.
    Ms. Ros-Lehtinen. Thank you, sir. Thank you. And now we 
move to Mr. Sherman of California.
    Mr. Sherman. First, I know the visa waiver program was 
mentioned earlier about the idea that those who visit Libya, I 
want to point out the visa waiver program is not a right that 
we extend to all Europeans and reducing it doesn't show that we 
would hate Europeans. We don't provide visa waivers to people 
from Brazil, and we love Brazilians, et cetera, and many of 
other--and I believe we don't have a visa waiver relationship 
with any of the Latin American countries that are our allies.
    But I would also point out that those we want to focus on 
who have visited Syria and Iraq to work with ISIS; they don't 
have a stamp on their passport from Syria. They don't have a 
stamp on their passport from Iraq. They have a stamp on their 
passport for Turkey. And we ought to be looking at whether we 
should provide visa waiver to those who have visited Turkey. At 
the same time, we have to look at our European friends and make 
sure that they don't just give a new passport to somebody who 
doesn't like the stamps on their old passport without telling 
us that it did have a stamp from Libya or from Iraq or from 
Turkey.
    And so I do think we are going to have to look at this visa 
waiver idea, but as long as any European can just get a new 
passport and then have visa waiver without letting us know that 
they visited Turkey, Syria or Iraq or Libya, we are going to 
have a problem.
    But now I want to focus on questions. We were serious in 
World War II. We had a strategic bombing program designed to 
destroy the economic capacity of occupied Europe. I believe we 
killed 90,000 French civilians and then we were welcomed by the 
French people as liberators. We were serious in that war. We 
won that war. De Gaulle never paid French civil servants in 
occupied France. De Gaulle did not arrange to provide food and 
fuel to those living in a Nazi-exploited occupied France.
    The Iraqi Government has told us that they finally stopped 
paying the civil servants in ISIS-occupied areas. Is that true? 
Are civil servants who live in ISIS, ISIL or ISIS-occupied 
territory able to leave, get their money and then go drive back 
to Mosul, or have they finally stopped paying people who are 
taxed by ISIS? Or don't you know?
    Mr. McGurk. No, thank you, Congressman. I have actually 
worked on this quite a bit. So the Iraqi Government made a 
decision, passed through their cabinet last summer that all----
    Mr. Sherman. I have got very limited time. Are they still 
paying the civil servants or not?
    Mr. McGurk. No, they are not.
    Mr. Sherman. And even if the civil servant leaves they 
can't get their money?
    Mr. McGurk. The salaries paid to people living under ISIL 
control are held in escrow. So when those areas are liberated 
they will get----
    Mr. Sherman. Wait a minute. If somebody just drives from 
Mosul, goes down to Kirkuk, can they pick up the money that is 
being held in escrow for them?
    Mr. McGurk. If they are living in Mosul they should not be 
able to do that.
    Mr. Sherman. Okay. Well, you should check on that because I 
am told they can get their money and then go back.
    But we also have a bombing--in World War II we bombed 
electric generation facilities. In Iraq, the Iraqi Government 
provides free electricity to ISIS. Are we willing to bomb the 
transmission lines through which that free electricity flows to 
Mosul?
    Mr. McGurk. The problem in Mosul is that a lot of the 
electricity in Mosul comes from the Mosul Dam, and we have to 
keep the Mosul Dam running to----
    Mr. Sherman. Well, we keep it running, but why use it to 
supply electricity to ISIS?
    Mr. McGurk. Well, it is a sophisticated engineering issue, 
because we don't want electricity going into Mosul. So----
    Mr. Sherman. It is not a sophisticated--it is a 
sophisticated political question. You don't have to send 
electricity to Mosul. Don't tell me that the dam breaks if you 
don't send electricity to the enemy.
    Mr. McGurk. By keeping the dam running, as I understand----
    Mr. Sherman. The dam should be kept running. That doesn't 
mean you have to send the electricity to ISIS.
    Mr. McGurk. We don't want electricity going into----
    Mr. Sherman. So bomb the transmission lines inside or 
outside of ISIS controlled territory.
    Mr. McGurk. Something we have looked at and we will look at 
it again. I will get the answer----
    Mr. Sherman. You have looked at it but you won't tell us 
why you are not doing it, will you?
    Mr. McGurk. We will get----
    Mr. Sherman. And why does the Iraqi Government provide 
electricity to Mosul for free and is that consistent with the 
approach we took in World War II when we were serious?
    Mr. McGurk. Probably different than the approach in World 
War II, but nobody is more anti-ISIL than the guys I know in 
the Iraqi Government. There is a debate between local leaders 
and the government about we don't want to drive the population 
into the hands of the ISIL in some of these areas, but the 
issue of electricity to Mosul is something I can get you a very 
detailed, specific answer on and I will do that.
    [The information referred to follows:]
 Written Response Received from the Honorable Brett McGurk to Question 
         Asked During the Hearing by the Honorable Brad Sherman
    The reason the Government of Iraq provides electricity to Mosul is 
not because it wants to, but because it has to. As the dam is in a 
progressive state of failure, reservoir levels need to be carefully 
controlled to avoid creating undue pressure on the dam either by 
draining it or by maintaining water levels above the emergency spillway 
threshold. The appropriate reservoir level is between 300 to 319 meters 
above sea level, according to a December 2006 U.S. Army Corps of 
Engineers study. There are two ways to release water: either through 
the two bottom outlets or through the hydroelectric turbines. One of 
the bottom outlets does not work and the other only partially works, 
leaving the hydroelectric turbines as the most reliable way to release 
water and control the reservoir level. There is no way to run water 
through the turbines without producing electricity and the transmission 
lines only go to Mosul. Thus, in order to effectively control the 
reservoir level, electricity must be sent to Mosul.
    The Government of Iraq put out a tender late last year for an 
international engineering firm to restore credible grouting at the dam 
to stabilize the foundation and also to repair the bottom outlets. 
Until that work has begun and the bottom outlets have been repaired, 
electricity will continue to be produced and go to Mosul in order to 
maintain an appropriate reservoir level and protect the integrity of 
the dam.

    Mr. Sherman. I look forward--and finally, we had a zero 
civilian casualty approach to our strategic bombing so we 
weren't hitting the tanker trucks. Now again if we had had a 
zero civilian casualty approach----
    Ms. Ros-Lehtinen. Mr. Sherman, we are over your time, so 
finish your question and maybe he could give a final answer.
    Mr. Sherman. Okay. Obviously in World War II we hit trains 
and trucks and factories. Are we hitting ISIS' economic targets 
even knowing that that will cause civilian casualties, for 
example, oil tanker trucks?
    Mr. McGurk. I addressed the issue of trucks earlier, 
Congressman. Yes, we are hitting the trucks. We are trying to 
do it in a way that limits the possibility of killing the truck 
drivers, but we have actually figured out a way to do that. But 
the trucks are not----
    Mr. Sherman. But are we willing to hit the trucks while 
they are being driven?
    Mr. McGurk. Well, we have figured out a way to hit the 
trucks and the trucks are not being driven.
    Mr. Sherman. In other words, you are only willing to hit 
the trucks when they are parked and if they are being driven 
you won't hit them.
    Mr. McGurk. Well, we don't want to needlessly, and I would 
really defer to my military colleagues here who work at this 
very closely. We don't want to needlessly----
    Mr. Sherman. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador. Thank you, Mr. 
Sherman. Dr. Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chair. Mr. Sherman, I feel your 
anxiety and your pain. I feel the same way. Is the 
administration planning on dropping humanitarian aid to Aleppo? 
I think--a yes or no.
    Mr. McGurk. Well, I think we are looking at all options on 
the humanitarian side right now.
    Mr. Yoho. That is not really answering. That is just saying 
you are looking at them. And that kind of reminds me of the 
President's budget that says national security and global 
leadership in President's budget, and it says that is why the 
United States is leading the global coalition that will destroy 
the Islamic state of Iraq and the Levant, and the budget 
provides for over $11 billion for the DoD.
    That is like wanting to learn to play the piano and you buy 
the piano and you put in the money for lessons but you don't 
practice it you are not going to play the piano. I hear a lot 
like we are looking at it. We are looking at the safe zones in 
Syria by Jordan and by Turkey, we are looking at that. We have 
been studying that 4 years. At some point it has to be acted 
upon.
    And I want to follow up with Mr. Sherman's comment. The 
reasoning to continually not bomb these transport vehicles with 
oil when the no-fly zone that was initiated by this 
administration along with Hillary Clinton to create a no-fly 
zone that led to a failed state, the fall of Gaddifi, and now 
Libya is an ISIS recruiting and training center and they have 
one of their biggest camps 12 miles from Libya's largest oil 
production facility, why are we not just bombing them? Like Mr. 
Sherman said, in World War II we had a strategy. Yes, that is 
one of the fallouts of war, but it brought that war to an end.
    We have been studying things and we are looking at options 
for 4 years, or 5 years now, close to 300,000 people have died. 
The Assad barrel bombs, we have been looking at maybe putting 
pressure on that and we are still studying it, but yet nothing 
happens. And we have the largest migration of refugees around 
the world because of the failed policies of this 
administration. What are we doing? I mean, when are we going to 
stop looking and start acting stronger and leading?
    Mr. McGurk. Well, Congressman, I was just in Kobani. I 
stood in the streets of Kobani where we killed 6,000 ISIL 
fighters with air strikes there; in fact still pulling bodies 
out of the rubble near where I was standing of ISIL fighters, 
killed 6,000 in that battle alone. We have destroyed 400 tanker 
trucks. So the idea that we are just watching this is not----
    Mr. Yoho. When were the 400 tanker trucks destroyed? What 
time period? In the last 6 months?
    Mr. McGurk. Probably the last 4 to 5 months.
    Mr. Yoho. Okay. But we have known about this for over 3 
years. I mean, we hear constituents saying, why is ISIS having 
oil production facilities? Why are they even allowed to produce 
anything? They should have been destroyed back then had we had 
a clear cut strategy.
    This is a real pointed question. What is this 
administration's reasoning to continually press for refugees 
from Syria and other areas in the Middle East, to relax the 
entry requirements into the U.S. especially when France, 
Germany and Belgium have documented that over 70 to 80 ISIS 
members entered the EU through Syria with fake passports, and 
those were the people that did the shootings in Paris. Why is 
this administration hellbent on relaxing these restrictions? 
What is the reasoning for that?
    Mr. McGurk. I think we have the most stringent entry 
standards on the refugee program in the world and that is 
something that is going to continue.
    Mr. Yoho. Yes, but yet FBI Director Comey and Jeh Johnson 
of DHS says there is no way to vet these people. So why not put 
a pause on this until we know for sure that they are not fake 
passports, they are not this? You are saying that but yet 
France and Germany and those other countries are kind of 
saying, hey, wait a minute, we are not doing this anymore. Why 
are we not heeding the warning that we know is going to happen?
    Mr. McGurk. Again, I think I defer to my colleagues who 
work this issue every day and I can get you a more detailed 
answer. But we have one of the most stringent refugee 
admissions processes in the entire world and that is why I am 
not aware of any terrorists who have entered through the 
refugee program.
    Mr. Yoho. Again going back to the ISIS transport. We talked 
about the administration's failure to go after this early. Four 
to six months ago they did this. And we are at a war at 
terrorism, right, and ISIS is the terrorist organization that 
we are in conflict with. And I don't know what poll you have, 
but I sure wish you guys would crank down on this 
administration and say that. Because what I see is a reckless 
endangerment and a dereliction of duty on our national security 
by this administration. And I hope you would help them 
straighten that out. I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Dr. Yoho. Now my other 
Florida colleague, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. Just on the subject 
of reckless endangerment as long as we are talking about some 
of these issues, I am not going to ask you, Mr. McGurk, to 
comment on this. But it is really hard for me to comprehend how 
we have this entire hearing with all kinds of accusations made 
about the administration's policies, the request that the 
administration actually take certain actions only to have you 
explain that we are taking them and then the criticism be, 
well, why didn't we take them sooner, when the concern that we 
have about fighting terrorism at least in one small respect can 
be addressed if we simply acknowledge that individuals who 
can't fly into this country because they are on a terrorism 
watch list can still, if they are in this country, go to any 
gun store and purchase a gun.
    I don't understand it, and if we are going to talk about 
reckless endangerment that is something that this Congress 
ought to be doing that the Speaker ought to allow us to have a 
debate on. And it is impossible for me to understand how after 
this entire hearing that single step that is logical that has 
the overwhelming support of the American people has yet to be 
done.
    Now Mr. McGurk, I want to circle back to a comment, an 
exchange you had earlier on Iran that focuses really on Iraq. 
But I want to talk about Iran's activities in Syria and the 
question I have is really straightforward. After the Iran 
nuclear deal and implementation day which has now passed, has 
that had any impact in the way that we interact with the 
Iranians with respect to their activities on the ground in 
Syria both supporting Hezbollah, propping up Assad, but at the 
same time fighting ISIL?
    Mr. McGurk. Congressman, thanks for your question. Iran, 
since the nuclear deal they are a part of the Vienna process. 
They are at the table with Saudi Arabia, Qatar, Turkey; 
everyone else. So that is significant. But certainly I think 
their tactic strategies in Syria, if anything, have made the 
conflict worse. I think we have been very clear on that. Iran 
is focused on, they have an election upcoming later this month 
which will decide some things about the direction the country 
is headed, but certainly we have not seen a significant change 
in terms of what they are doing in Syria.
    Mr. Deutch. And just the only other thing I would observe 
that I am not sure how many things will be decided when the 
number of reformers who are allowed to run is mere tens out of 
the thousands who had sought that, but I appreciate that. And I 
want to just ask a follow-up.
    But the fact is that Iran and its proxies are responsible 
for so much of Assad's, propping up Assad and Assad's ability 
to massacre his own people. In the earlier stages of these 
debates there was talk about individuals who would like to go 
after Assad because of the butchery, the brutality against 
their family members and their community members, and if they 
didn't have that opportunity sometimes they turn to whoever 
would give them the chance to fight no matter how awful that 
group might be.
    What are we doing now to ensure that the battle they wage 
is one that is against ISIL and yet also acknowledges that the 
Assad, the brutal Assad regime ultimately is responsible for so 
much of the problem that exists?
    Mr. McGurk. This is real problem, because so long as the 
conflict between the regime and the opposition is running at 
full bore, which it is right now enabled by the Russian air 
campaign, the pool of fighters particularly in those parts of 
the country to fight ISIL are reduced. So I discussed in some 
detail north of Aleppo, the Mari line, groups we were working 
with to fight ISIL have now peeled off to fight the regime, 
again which is why the Russian air campaign in this respect has 
made the fight against ISIL more difficult.
    Mr. Deutch. And finally, I know the chairman joins me in 
telling you that while--first, I want to commend you personally 
for your efforts in helping to secure the release of American 
citizens who had been held in Iran. As you know, my 
constituent, Bob Levinson, was not among them. I was with the 
family this morning over on the Senate side at a markup of a 
resolution that we are going to be taking up here. They deserve 
to have that same feeling of joy and relief that the other 
families are now feeling, and I just can't emphasize strongly 
enough how important it is for us, for the American people, and 
for you specifically to be unrelenting in your efforts to bring 
Bob home.
    Mr. McGurk. Congressman, I assure you the issue with the 
prisoners was one of the most difficult things I have ever 
done. I have gotten to know the families quite well. I have met 
the Levinsons a number of times. I saw them in the West Wing 
yesterday before they saw the President. And we certainly will 
not cease in our efforts.
    Ms. Ros-Lehtinen. Thank you so much. Thank you for that Mr. 
Deutch. Mr. Keating of Massachusetts.
    Mr. Keating. Thank you, Madam Chairman, and thank you for 
having this hearing. I would like to thank Mr. McGurk for your 
service and the work you have done. It is important and you 
have done a great job and I appreciate that personally, and I 
am speaking as a Member of Congress as well.
    Mr. McGurk. Thank you.
    Mr. Keating. I would like to, at first, associate myself 
with some remarks my colleague Mr. Deutch made about even when 
putting things in perspective in terms of threats here at home, 
even with the language and to scrub the Terrorist Watch List, I 
think it is just important that we get a vote on that. The idea 
that people on that Terrorist Watch List that can legally 
procure explosives and weapons and do that legally in this 
country is something that we have to address as part of our own 
homeland security.
    A question I have along those lines, earlier this last year 
I went with a group of my colleagues from the Homeland Security 
Committee. We were looking at tracking the issues surrounding 
foreign terrorist fighters and those issues. Could you give an 
update on the Security Council resolution in that regard, 2178? 
And also more specifically, my concern is too with some of the 
progress we have made, you mentioned with Turkey that we will 
see how that turns out. I am hopeful but somewhat skeptical 
about their ability to secure that border area.
    But two issues that stand out, the passenger name record 
issue with EU countries and even the kind of security that is 
done on the exterior border of the Schengen countries. Can you 
tell me any progress that you are aware of that we have made 
with our European allies so that they can tighten that up? That 
has a direct effect with our security here at home, their 
ability to do that.
    Mr. McGurk. So great questions, Congressman. I addressed 
this somewhat in my written statement. Since Paris we have 
certainly seen a lot of movement in this regard. The first step 
was to focus international attention on this problem and then 
to get something concrete out of it which was Resolution 2178 
which came out of the U.N. General Assembly in 2014. Since 
then, I think as my testimony mentioned, about 45 countries 
have updated their laws to track down foreign terrorist 
fighters.
    What we are trying to do now as we learn more about the 
networks and through the coalitions--it is why our global 
coalition is so important. It is not just the military which 
gets a lot of the focus, it is sharing information across these 
multiple lines of effort, and in the foreign fighter side we 
have a cell which shares information across borders.
    So we have had arrests now in Belgium, Egypt, France, 
Germany, Indonesia, Kuwait, Malaysia, Netherlands, Philippines, 
Spain, Tunisia, Turkey, Qatar, here in the United States, and 
now what we are doing is sharing information to try to really 
collapse these foreign fighter networks.
    And it is a very difficult endeavor. It is law enforcement, 
it is intelligence, but it is constantly sharing information. 
We have found that many of the countries we work with, they 
have a difficult time sharing information amongst themselves in 
their capital. It is a problem we had before 9/11.
    Mr. Keating. Yes, there are different laws, privacy laws.
    Mr. McGurk. So we have broken down a lot of those 
stovepipes here in the U.S. post 9/11, and we are finding out 
post Paris, particularly in the EU they are also working to do 
the same thing.
    Passenger name recognition is a critical thing. That was 
getting in the way, getting hung up on privacy laws in the EU. 
Now the EU Parliament has passed, finally, the passenger name 
recognition, so we know everybody who is on--they know 
everybody who is on those airplanes. We of course know 
everybody coming into the U.S. So something we are diligent 
about, something we raise all the time, and within the 
coalition we now have a permanent structure set up on the 
foreign terrorist fighter side, so--and it is a permanent 
platform now, constantly sharing information and figuring out, 
connecting dots. It has led, as I mentioned in my testimony, to 
a number of FBI investigations. This came right out of our 
coalition activities, and it is something that we are going to 
continue.
    Mr. Keating. Quickly, one other question before my time 
expires. There have been written reports out there that the 
terrorist fighters that their salaries and the money they are 
getting has been cut by as much as 50 percent. What do you know 
about those reports, how real are they, and obviously what kind 
of impact would that have on their recruitment when this begins 
to break down? Because we are trying to hone in and really 
damage their ability to finance these terrorist activities.
    Mr. McGurk. Again a very good question. And one reason we 
decided to go after these cash, bulk cash storage sites 
particularly in Mosul, look, they are right in downtown Mosul. 
To answer some of the questions from your colleagues earlier is 
there a risk that some civilians might lose their lives in an 
air strike like that? The answer is yes. However, the judgment 
was that it is important to strike those sites because this is 
how they are paying and recruiting their fighters. And we 
eliminated those sites.
    But I just want to go back. We are very careful about 
civilian casualties for a reason. We are not going to be like 
the Russians or some others who are just using dummy bombs on 
civilian areas and trying to kill people they consider 
extremists. This has been the most precise air campaign in 
history and we are very proud of that. It is also, I think 
history will show, it has been one of the most effective air 
campaigns in history.
    And what we have done to ISIL's finances by a careful 
infusion of intelligence, sharing information across the 
coalition and within the U.S. Government to identify the 
targets and then to action those targets is something that 
takes time to piece together. Sometimes it takes longer than we 
might want, but we have pieced it together. We have now done 
those air strikes, they have been very effective, and as you 
said they have led to very credible information we have now 
that ISIL has cut its pay to foreign fighters by nearly 50 
percent.
    Mr. Keating. Thank you. Thank you, Mr. McGurk. And I wish 
we could say the same thing about the Russians and the way they 
are conducting their bombing exercises as we can about our own 
exercises. I yield back, Madam.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Keating. And Mr. 
McGurk, we appreciate the time that you took with us this 
morning. I know that you are headed to the airport to continue 
your work, but ISIS is an incredibly dangerous threat that is 
global and continues to grow and the committee looks forward to 
continuing to work with you on this important issue. With that 
the hearing is adjourned.
    Mr. McGurk. Thank you so much.
    Ms. Ros-Lehtinen. Safe journey.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
